Office of Inspector General
Evaluation Report




Federal Facility Cleanups
EPA Region 10 Needs to Improve
Oversight of Remediation Activities at the
Hanford Superfund 100-K Area

Report No. 2003-P-00002

November 4, 2002
Report Contributors:                         Carolyn Copper, Director
                                             Michael Owen, Assignment Manager
                                             Phil Weihrouch, Project Manager
                                             Kimberly Murphy, Auditor
                                             Madeline Mullen, Program Analyst


Abbreviations

CERCLA:           Comprehensive Environmental Response, Compensation, and Liability Act
DOE:              U.S. Department of Energy
EPA:              U.S. Environmental Protection Agency
FFACO:            Federal Facility Agreement and Consent Order
GAO:              U.S. General Accounting Office
gpm:              Gallons Per Minute
HEIS:             Hanford Environmental Information System
NCP:              National Contingency Plan
NPL:              National Priorities List
OIG:              Office of Inspector General
pCi/L:            Picocuries Per Liter
RCRA:             Resource Conservation and Recovery Act
ROD:              Record of Decision
ug/L:             Micrograms Per Liter




Photo Caption: The K-West Reactor located in Hanford’s 100-K Area (photo by EPA OIG).
                     UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                WASHINGTON, DC 20460
                                                                                      OFFICE OF
                                                                                 INSPECTOR GENERAL




                                        November 4, 2002

MEMORANDUM

SUBJECT:       Federal Facility Cleanups: EPA Region 10 Needs to Improve Oversight of
               Remediation Activities at the Hanford Superfund 100-K Area
               Report No. 2003-P-00002


FROM:          Carolyn Copper
               Director, Hazardous Waste Issues
               Office of Program Evaluation


TO:            John Iani
               Regional Administrator
               EPA Region 10

Attached is our final report on the Environmental Protection Agency’s (EPA’s) Oversight of
Remediation Activities at the Hanford Superfund 100-K Area. The purpose of our evaluation
was to determine whether EPA Region 10's (Region’s) oversight of U.S. Department of Energy
remediation activities for the 100-K Area’s K Basins and groundwater at Hanford has provided
adequate protection to human health and the environment.

The report contains findings and recommendations that describe problems the Office of Inspector
General (OIG) has identified and the corrective actions the OIG recommends. This report
represents the opinion of the OIG and the findings contained in this report do not necessarily
represent the final EPA position. Final determinations on matters in this report will be made by
EPA managers in accordance with established audit resolution procedures.

ACTION REQUIRED

On August 20, 2002, the OIG issued a draft report to the Region for review and comment. The
Region and the OIG discussed the content of the draft report on September 12, 2002. We issued
a revised draft report to the Region on October 2, 2002 in order to address concerns expressed by
the Region during this meeting. We received the Region’s response to the revised draft report on
October 11, 2002. With one exception, the Region concurred with the report’s
recommendations. However, the response to most of the recommendations did not sufficiently
describe the corrective actions planned or taken. Specific corrective actions which address all of
the recommendations and milestones for completion of planned actions will be needed to close
the final report.

In accordance with EPA Order 2750, you, as the primary action official, are required to provide
this office with a written response within 90 days of the final report date. The response should
address all recommendations. For corrective actions planned but not completed by the response
date, please describe the actions that are ongoing and provide a timetable for completion.
Reference to specific milestones for these actions will assist in deciding whether to close this
report in our assignment tracking system.

We have no objection to the further release of this report to the public. Should you or your staff
have any questions, please have them contact me at (202) 566-0829 or Mike Owen, Assignment
Manager, at (206) 553-2542.

Attachment
                     Executive Summary
           The U.S. Environmental Protection Agency (EPA) is responsible for overseeing
           Superfund activities at Federal facilities. This includes the Hanford Superfund
           Site, a U.S. Department of Energy (DOE) facility in southeastern Washington
           State. Between 1943 and 1989, Hanford’s principal mission was the production
           of weapons-grade plutonium. The 586-square-mile site along the Columbia River
           contains nine deactivated plutonium production reactors. In the 100-K Area,
           approximately 1,800 metric tons of spent nuclear fuel are stored. DOE officials
           say Hanford is the world’s largest environmental cleanup project.

           The purpose of this evaluation was to determine whether EPA Region 10’s
           oversight of DOE’s remediation activities for the 100-K Area’s K Basins and
           groundwater at Hanford has provided adequate protection to human health and the
           environment.

Results in Brief

           Although some remediation progress has been made, Region 10 needs to further
           improve its oversight of Superfund remedial activities pertaining to Hanford’s
           100-K Area. More than 60 percent of DOE’s national inventory of spent nuclear
           fuel is stored in the K Basins of the 100-K Area. Delays in removing the spent
           nuclear fuel, as well as sludge, debris, and contaminated water, increase the risk of
           a release of radionuclides to the air, soil, groundwater, and Columbia River, which
           can adversely affect human health and the environment. In addition, the remedial
           action for groundwater contamination within the area’s 116-K-2 Trench section is
           less than effective in reducing ecological risks. A formal assessment to determine
           whether an interim remedial action is necessary for contaminated groundwater
           within the area’s reactor section has not been completed.

           Oversight of K Basins Needs Improvement

           Sufficient action has not been taken to ensure that DOE’s interim remedial action
           for the K Basins meets the schedule specified by the Federal Facility Agreement
           and Consent Order (FFACO). Region 10 has not ensured that timely milestones
           for the interim remedial action are established, the milestones in place are
           achievable, and insufficient remediation progress is addressed timely and
           effectively. The K Basins have already exceeded their design lives by more than
           20 years, and an increase in risk is directly proportional to age. Region 10
           oversight was insufficient because it did not obtain enough information and did
           not place sufficient emphasis on resolving problems.


                                             i                           Report No. 2003-P-00002
        Additional Oversight Necessary for Groundwater Interim Remedial Action

        Region 10 has not provided sufficient oversight of DOE’s pump-and-treat interim
        system for groundwater contaminated with hexavalent chromium entering the
        Columbia River to a level that is protective of human health and the environment.
        Even though the system was not achieving the cleanup standard specified by the
        Record of Decision, the Region did not take sufficient actions to ensure DOE
        operated the system effectively during the 3-year period ending September 2000
        and needed upgrades were completed in a timely manner.

        Groundwater Remediation Requirements Not Adequately Addressed

        Region 10 has not obtained sufficient information from DOE to determine
        whether an interim remedial action is necessary for contaminated groundwater
        within the reactor section of the Hanford Site 100-K Area. The Region and DOE
        concluded, without completing a formal assessment, that an interim remedial
        action was unnecessary for the reactor section. Also, the Region has not ensured
        that DOE’s groundwater monitoring system has provided sufficient data to enable
        an adequate assessment of remediation requirements.

        Hexavalent chromium contamination levels in the groundwater within the reactor
        section have continued to significantly exceed State limits, while carbon-14
        contamination levels in the groundwater have continued to exceed Federal
        standards. However, because the Region could not provide us with adequate data,
        we could not determine whether an interim remedial action to remove hexavalent
        chromium and carbon-14 from the groundwater within the 100-K Area was
        necessary for adequate protection of ecological receptors.

        An interim remedial action was not necessary for strontium-90, tritium, and
        nitrate contamination in the groundwater within the 100-K Area. Human health
        and ecological risk assessments for the strontium-90, tritium, and nitrate
        contamination in the groundwater were adequate and showed that the risks did not
        justify an interim remedial action.

Recommendations

        We made recommendations to the EPA Region 10 Administrator for improving
        their oversight of Hanford’s 100-K Area. These recommendations include for the
        Region to monitor DOE’s efforts to successfully complete remediation
        requirements for the K Basins and take action as appropriate under the FFACO if
        requirements are not met; evaluate performance of the upgraded pump-and-treat
        system to determine whether it will achieve the remedial action objectives and, if
        necessary, pursue timely and formal followup on problems; require a formal
        assessment on the need for an interim remedial action in the area’s reactor section;

                                         ii                          Report No. 2003-P-00002
         and have DOE improve its groundwater monitoring system. We noted that
         enforcement actions should be pursued as appropriate.

Agency Comments and OIG Evaluation

         Region 10 generally concurred with the recommendations, with one exception.
         However, the Region’s response to most of the recommendations did not
         sufficiently describe the corrective actions planned or taken. To resolve and close
         this report, the Region needs to provide specific actions planned or taken for each
         recommendation in the final report, along with milestones for completion of the
         corrective actions.

         Region 10 did not concur with our recommendation to improve the groundwater
         monitoring system for the reactor section of the 100-K Area. Rather, the Region,
         together with the U.S. Geological Survey, will review DOE’s October 4, 2002
         groundwater monitoring and assessment plan for the 100-K Area fuel storage
         basins and then determine if modifications are needed.

         The Region stated that it continues to have concerns regarding the overall
         conclusions of the report with respect to their effectiveness in overseeing DOE’s
         work at Hanford. According to the Region, the report does not fully acknowledge
         the significant work that has been accomplished in the 100-K Area since EPA
         assumed the lead oversight agency responsibility for the K Basins in 1998.

         We believe that the report clearly acknowledges significant work that has been
         accomplished since EPA assumed the lead oversight role for the K Basins.
         Chapter 2 of the report acknowledges and discusses the successful completion of
         milestones associated with the installation of equipment, construction of facilities,
         and startup operations, which are critical for remediating the K Basins. In
         addition, we recognize that the Region’s oversight activities have resulted in a
         pump-and-treat interim remedial action for a groundwater plume contaminated
         with hexavalent chromium located in the 100-K Area’s 116-K-2 Trench section,
         although the remedy’s effectiveness is questionable.




                                           iii                         Report No. 2003-P-00002
iv   Report No. 2003-P-00002
                                 Tables of Contents
Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i



Chapters

         1        Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

         2        Oversight of K Basins Needs Improvement . . . . . . . . . . . . . . . . . . . . . . . . . . 7

         3        Additional Oversight Necessary for
                  Groundwater Interim Remedial Action . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

         4        Groundwater Remediation Requirements
                  Not Adequately Addressed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33



Appendices
         A        Timeline of K Basins Major Events and FFACO Milestones . . . . . . . . . . . . 47

         B        Details on Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49

         C        Agency Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 51

         D        Distribution List . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 61




                                                                v                                      Report No. 2003-P-00002
                                   Tables
2-1:   Milestone Revisions From May 2000 Amendment . . . . . . . . . 11

2-2:   March 2001 FFACO Amendment Revisions . . . . . . . . . . . . . . 12

2-3:   Projected Spent Nuclear Fuel Removal Delays . . . . . . . . . . . 17

4-1:   100-K Area Contamination Levels from Risk Assessment . . 37

4-2:   Sampling Conducted for Reactor Section, 1997-2001 . . . . . . 40

                                  Figures
1-1:   Map of Hanford Superfund Site . . . . . . . . . . . . . . . . . . . . . . . . 2

2-1:   Spent Nuclear Fuel Project Process . . . . . . . . . . . . . . . . . . . . 8

3-1:   Pump and Treatment System Capture Zone . . . . . . . . . . . . . 23

3-2:   Average Hexavalent Chromium Concentration . . . . . . . . . . . 24

3-3:   Average Composite Withdrawal Rate . . . . . . . . . . . . . . . . . . 25

3-4    Chromium Capture Zone for System’s Extraction Wells . . 29

4-1    100-K Area Groundwater Monitoring . . . . . . . . . . . . . . . . . . . 34

4-2:   Highest Reactor Section Chromium Levels, 1994-2001 . . . . 42

4-3:   Highest Reactor Section Carbon-14 Levels, 1994-2001 . . . . 42




                                        vi                                 Report No. 2003-P-00002
                                Chapter 1
                                 Introduction
Purpose

          The purpose of this evaluation was to determine whether U.S. Environmental
          Protection Agency (EPA) Region 10’s oversight of U.S. Department of Energy
          (DOE) remediation activities for the 100-K Area’s K Basins and groundwater at
          the Hanford Superfund Site has provided adequate protection to human health and
          the environment. The specific objectives were to answer the following questions.

          •   Has the Region’s oversight of the DOE’s interim remedial action for the
              K Basins provided assurance of compliance with the Hanford Federal Facility
              Agreement and Consent Order milestones that were established to eliminate
              significant human health and environmental risks?

          •   Has the Region taken sufficient action to ensure that DOE’s pump-and-treat
              system reduces hexavalent chromium contamination in groundwater entering
              the Columbia River to a level that is protective to human health and the
              environment?

          •   Have human health and ecological risks posed by groundwater contamination
              within the 100-K Area been adequately assessed?

          •   Does the groundwater monitoring system for the 100-K Area provide
              sufficient data to enable the Region to effectively monitor the boundaries and
              migration of contaminated groundwater and to evaluate human health and
              environmental risks posed by the contamination?

          •   Is an interim remedial action to remove strontium-90, tritium, carbon-14, and
              nitrate from the groundwater within the 100-K Area necessary for adequate
              protection of human health and the environment?

          •   Was the decision to not require an interim remedial action for groundwater
              contaminated with carbon-14 protective of human health and the
              environment?




                                           1                           Report No. 2003-P-00002
Background

        The Hanford Superfund Site is in southeastern Washington State, near Richland,
        and occupies about 586 square miles. The Columbia River, one of the largest
        rivers in the United States, runs through more than 50 miles of the site, as shown
        in the map.

                            Figure 1-1: Map of Hanford Superfund Site
                        (Source: ROD for 100-HR-3 and 100-KR-4 Operable Unit)




        The site is the responsibility of DOE. From 1943 to 1989, Hanford’s principal
        mission was the production of weapons-grade plutonium. To produce plutonium,
        uranium metal was irradiated in a plutonium production reactor. Spent nuclear
        fuel was cooled and treated in a chemical separations plant, where plutonium was
        separated from uranium and many other radioactive by-products. This process
        resulted in several hundred thousand metric tons of radioactive and hazardous
        waste. DOE officials say Hanford is the world’s largest environmental cleanup
        project.

        Hanford was added to the National Priorities List (NPL) in 1989 as four sites,
        including the 100 Area. The 100 Area, situated along the south shore of the
        Columbia River, contains nine deactivated plutonium production reactors. The
        100-K Area consists of the K East and West Reactors and their associated support
        facilities and waste sites.

                                         2                            Report No. 2003-P-00002
100-K Area

The K East and West Reactors and their adjacent spent nuclear fuel storage basins
are about 1,400 feet from the Columbia River. The basins are unlined concrete
1.3-million-gallon water pools with an asphaltic membrane beneath each pool.
The basins were constructed to collect and temporarily store (nominally 6 to 18
months) irradiated spent nuclear fuel that had been discharged from the reactors
prior to reprocessing.

The K East and West Reactors operated from 1955 to 1971 and 1970,
respectively, and most of the spent nuclear fuel was removed from the basins
when the reactors were shut down. The basins were subsequently used to store
spent nuclear fuel from the Hanford N Reactor, starting in 1975 for K East and
1981 for K West. Approximately 1,800 metric tons of spent nuclear fuel, stored
for as long as 30 years, remain in the basins. This represents more than 60 percent
of the DOE’s national inventory of spent nuclear fuel.

The K East Basin is a greater concern where fuel is stored in open canisters. This
allows water to come in contact with the fuel elements and cause corrosion.
K West Basin fuel is stored in closed canisters. An estimated 1,800 cubic feet of
radionuclide-containing sludge has accumulated on the K East Basin floor. The
spent nuclear fuel continues to release radioactive materials to the water and
presents a radiation
hazard. No groundwater
monitoring wells were in
place while the K East
and West Reactors were
operating, so it is not
known if the basins
leaked during that time.
However, since the
1970s, DOE officials
estimate that
approximately 15 million
gallons of contaminated Corroding spent nuclear fuel in open canisters in K East Basin
water leaked to the soil. (Source: DOE’s Hanford Reach newsletter, April 16, 2001)

A continuous supply of water was essential for reactor operations, to prevent
reactor core damage from the heat generated by fission reactions. Cooling water
was pumped from the Columbia River and treated with chemicals, including
sodium dichromate (hexavalent chromium). While in the reactor, the cooling
water became contaminated with radioactive activation and fission products,
including: tritium, carbon-14, strontium-90, cesium-137, and plutonium-239/240.
The cooling water was discharged to retention basins to cool and let short-lived

                                   3                           Report No. 2003-P-00002
radioisotopes decay before release to the Columbia River. During the years of
reactor operations, liquid radioactive and chemical wastes were also discharged to
various cribs, drains, and trenches, and soil became significantly contaminated.
As a result, groundwater contaminant plumes are migrating toward and
discharging into the Columbia River.

Regulations and Responsibilities

The Comprehensive Environmental Response, Compensation, and Liability Act
(CERCLA) established EPA’s hazardous release reporting and cleanup program,
known as Superfund. The National Contingency Plan (NCP), or 40 Code of
Federal Regulations Part 300, sets forth the process and regulations for conducting
CERCLA cleanup actions. EPA’s goal, as stated in the NCP, is to select cleanup
remedies that are protective of human health and the environment, maintain
protection over time, and minimize untreated waste. The NCP provides that the
selection of a remedy shall be based on whether it provides overall protection of
human health and the environment; compliance with Applicable or Relevant and
Appropriate Requirements; long term effectiveness and permanence; reduction of
toxicity, mobility, or volume through treatment; implementability, including
technical feasibility; and cost effectiveness.

In 1988, spurred by outstanding compliance problems at the Hanford Site, DOE,
EPA Region 10, and the State of Washington’s Department of Ecology negotiated
a combined Federal Facility Agreement under CERCLA, and a Consent Order
under the Resource Conservation and Recovery Act (RCRA) and the State’s
Hazardous Waste Management Act. The document, known as the Hanford
Federal Facility Agreement and Consent Order (FFACO), required DOE to
undertake cleanup actions at many existing sites and other actions.

The three parties signed the original FFACO in May 1989. In 1993, they initiated
further negotiations to establish an agreed upon technical path to minimize or
eliminate the continued endangerment of public health and contamination posed
by the K Basins. Milestones were agreed upon and established in the fourth
amendment to the FFACO, approved by the parties in January 1994, with removal
of all spent nuclear fuel and sludge from the K Basins required by December
31, 2002. As a result of increased concerns, the parties agreed on a new technical
path, and in January 1999, the FFACO was revised to require complete removal of
spent nuclear fuel, sludge, debris, and water from the K Basins by July 31, 2007.
A timeline of major events and FFACO milestones for the K Basins is in
Appendix A.

The FFACO defines the regulatory roles and responsibilities for Hanford. The
lead regulatory agency is responsible for overseeing DOE activities. EPA is
generally the lead for CERCLA units and the Department of Ecology the lead for

                                 4                          Report No. 2003-P-00002
          RCRA units. Although the State was initially designated the lead for the
          K Basins, the parties subsequently agreed K Basins cleanup could be addressed
          most effectively as a CERCLA interim remedial action. Consequently, in June
          1998, the FFACO was amended to designate EPA as the lead agency for the
          K Basins.

Scope and Methodology

          We performed this evaluation in accordance with the Government Auditing
          Standards, issued by the Comptroller General of the United States as they apply to
          performance audits. Our review included tests of program records and other
          evaluation procedures we considered necessary for the purposes of expressing an
          opinion based on our objectives. We also reviewed the Federal Managers’
          Financial Integrity Act reports for Fiscal Years 1999 and 2000. The reports did
          not identify any material weaknesses or vulnerabilities relating to the issues
          discussed in this report. See Appendix B for scope and methodology details.

Prior Coverage

          The EPA Office of Inspector General (OIG) has not conducted prior reviews of
          Region 10 oversight of remediation activities for the K Basins and groundwater in
          the 100-K Area. However, EPA OIG evaluations of Region 4 oversight of
          cleanup activities at the Savannah River and Oak Ridge facilities have recently
          been completed (Report Nos. 2002-P-00014 and 2002-P-00013, September 2002).

          Our report on the Savannah River Facility concluded that improvements are
          needed in Region 4's oversight of DOE’s implementation of cleanup actions at the
          facility. From 1996 through 2002, DOE discontinued evaluating or ranking sites
          on potential risks to the environment and human health. Although such rankings
          are required, EPA did not ensure they were conducted. We found several
          instances where cleanup actions at Savannah River sites had been delayed because
          EPA has provided late responses to DOE cleanup decision documents.

          The report on the Oak Ridge Facility concluded Region 4's oversight could be
          improved by reviewing and evaluating additional studies conducted by Tennessee
          that identified potential contaminants of concern that may not be accounted for in
          existing Federal Facility Agreement documents. In 1999, the Tennessee
          Department of Health issued a series of reports that showed that, in some cases,
          levels of pollutants being released from Oak Ridge were substantially higher than
          previously acknowledged by the government. However, neither DOE nor EPA
          had evaluated the impact the reports may have on current cleanup activities or
          decisions.



                                           5                          Report No. 2003-P-00002
In regard to the Hanford 100-K Area, the U.S. General Accounting Office (GAO)
published two reports that identified weaknesses in DOE’s management of spent
nuclear fuel removal efforts:

•   Management Problems at the Department of Energy’s Hanford Spent Fuel
    Storage Project (GAO/T-RCED-98-119, May 1998).

•   DOE’s Hanford Spent Nuclear Fuel Storage Project - Cost, Schedule, and
    Management Issues (GAO/RCED-99-267, September 1999).

DOE OIG has also reviewed the remedial action for the K Basins. DOE OIG’s
report, Completion of K Basins Milestones (DOE/IG-0552, April 2002) identified
that equipment problems, process complexities, and planning weaknesses may
prevent DOE from meeting FFACO milestones for the K Basins. Details on the
GAO and DOE OIG reports are in Chapter 2.




                               6                         Report No. 2003-P-00002
                               Chapter 2
      Oversight of K Basins Needs Improvement
        Although EPA Region 10’s oversight activities have contributed to DOE’s
        successful completion of certain FFACO milestones critical for removing spent
        nuclear fuel from Hanford’s K Basins, improvement is needed. The Region has
        not taken sufficient action to ensure that timely milestones for the interim
        remedial action are established, the milestones in place are achievable, and
        insufficient remediation progress is addressed timely and effectively.
        Specifically:

        •    A May 2000 FFACO amendment delayed the initiation and completion of the
             removal of the K East Basin’s spent nuclear fuel.

        •    A March 2001 FFACO amendment implemented an Alternate Fuel Transfer
             Strategy without obtaining reasonable assurance that FFACO milestones
             would be met, which may result in a delay of approximately 16 months.

        •    Sufficient interim milestones for removal of spent nuclear fuel were not
             included in the March 2001 FFACO amendment, even though DOE was
             behind schedule for meeting due dates specified by the FFACO.

        •    Response actions to DOE’s inability to complete two target milestones by the
             due dates specified in the FFACO were either ineffective or not initiated.

        Region 10 oversight was insufficient because it did not obtain enough information
        to determine whether revisions were necessary and ensure that sufficient planning
        had been completed. Also, the Region has not placed sufficient emphasis on
        resolving DOE’s inability to meet FFACO milestones. The K Basins have already
        exceeded their design lives by more than 20 years, and an increase in risk is
        directly proportional to the continued aging of the basins. Delays in removing the
        spent nuclear fuel, sludge, debris, and water from the basins increase the risk of a
        release of radionuclides to the air, soil, groundwater, and Columbia River, which
        can adversely impact human health and the environment.

Background

        In 1994, the Defense Nuclear Facilities Safety Board expressed concern with the
        K East Basin in Recommendation 94-1, Improved Schedule for Remediation.
        According to the board, the continued storage of spent nuclear fuel in the K East
        Basin posed a threat to human health and the environment, and the board

                                          7                          Report No. 2003-P-00002
recommended the removal and stabilization of the spent nuclear fuel and sludge
from the basin within 2 to 3 years.

Recognizing that both the K East and West Basins pose risks to human health and
the environment, DOE initiated its Spent Nuclear Fuel Project. The project,
estimated at a total cost of $1.7 billion, includes the following major objectives:

•     Removing and repackaging K Basins’ spent nuclear fuel into metal
      containers, called multi-canister overpacks, suitable for safe handling and
      interim storage of up to 40 years at the Canister Storage Building.

•     Drying the spent nuclear fuel at the Cold Vacuum Drying Facility to enable
      safe transport to the Canister Storage Building.

•     Removing sludge and debris collected in the basins for disposition.

•     Treating water contained in the basins to maintain safe water quality and
      conditions and to allow removal of the water for disposition.

                                  Figure 2-1




    Source: DOE, see http://www.hanford.gov/doe/snf/fuelprocess.htm


One of the purposes of the Hanford FFACO is to establish a framework and
schedule for implementing response actions in accordance with the CERCLA,
including milestones. The FFACO includes milestones and a schedule for a
CERCLA regulated interim remedial action for the K Basins. The interim
remedial action includes construction of the Cold Vacuum Drying Facility and
Canister Storage Building; removal of all spent nuclear fuel, sludge, debris, and


                                     8                            Report No. 2003-P-00002
          water; and decontamination and decommissioning of all buildings and structures
          within the 100-K Area.

          The FFACO includes enforcement provisions for noncompliance with major
          requirements and milestones, including the options to issue penalties. Under the
          agreement, EPA, as a lead regulator, is responsible for enforcement of FFACO
          milestones. In the event DOE fails to comply with a term or condition of the
          FFACO, a stipulated penalty may be assessed in an amount up to $5,000 for the
          first week and up to $10,000 for each additional week of noncompliance.

Region’s Oversight Resulted in Completion of Some Milestones

          Region 10’s oversight activities from June 1998 through December 2000
          contributed to DOE’s completion of milestones associated with installation of
          equipment, construction of facilities, and startup operations, which are critical for
          removing the spent nuclear fuel from the basins. Accomplishments included:

          •   Completion of the Integrated Water Treatment System at the K West Basin in
              June 1999, for collecting particulate and soluble contaminants and allowing
              segregation of canister sludge for safe storage.

          •   Installation of the Fuel Retrieval System at the K West Basin in September
              1999, for retrieving, sorting, washing, and placing spent nuclear fuel elements
              into baskets and multi-canister overpacks for drying and stabilization.

          •   Completion of the Cold Vacuum Drying Facility in October 1999 to remove
              water from and around the spent nuclear fuel in the multi-canister overpacks.

          •   Completion of the Canister Storage Building in May 2000, a 42,000-square-
              foot structure with three heavily reinforced concrete vaults, each capable of
              holding 440 multi-canister overpacks.

          •   Completion of operational readiness reviews for the facilities and “hot” testing
              with spent nuclear fuel assemblies during October and December 2000.

          •   Removal of the first multi-canister overpack from the K West Basin in
              December 2000; the overpack was dried at the Cold Vacuum Drying Facility
              and placed in interim storage at the Canister Storage Building.




                                            9                            Report No. 2003-P-00002
Oversight Improvements Needed

         Despite the accomplishments noted, Region 10 needs to improve its oversight of
         DOE’s interim remedial action for the K Basins to ensure milestones are met and
         risks to human health and the environment are eliminated in a timely manner.

         May 2000 Amendment Delayed Removal of Spent Nuclear Fuel

         Although the K East Basin is the most contaminated basin and has leaked at least
         twice in the past, a FFACO amendment was approved in May 2000 that delayed
         the initiation and completion of the removal of the basin’s spent nuclear fuel by
         13 and 7 months, respectively.

         The amendment was requested by DOE and approved by the Region to implement
         DOE’s “Sludge Acceleration Strategy.” According to the justification for the
         amendment, the FFACO revision would allow the Spent Nuclear Fuel Project to
         integrate sludge and spent nuclear fuel removal activities to accelerate completion
         of sludge removal from the basins. The justification also disclosed that the
         revision would eliminate the overlap in the schedule for spent nuclear fuel
         removal from the K East and West Basins, thereby eliminating the short-term
         peak in operations necessary when removal occurs at both basins simultaneously.

         The justification included a $16 million reduction in total project cost. A
         July 1999 letter sent by DOE’s Spent Nuclear Fuels Project Division to DOE’s
         contractor for the project disclosed that the primary reason for the amendment
         request was cost savings. Specifically, the letter stated the new strategy
         “represents a valuable opportunity to accelerate some aspects of the existing work
         schedules and more importantly, to identify and optimize actions that could result
         in substantial savings.”

         Although the amendment accelerated spent nuclear fuel removal from the K West
         Basin and sludge removal from both basins, the amendment represented a trade
         off between cost savings and risk reduction. Specifically, the amendment reduced
         total project costs, but delayed the removal of spent nuclear fuel from the K East
         Basin, the milestones most critical for reducing human health and environmental
         risks. In 1994, the Defense Nuclear Facilities Safety Board expressed concern
         regarding the continued storage of spent nuclear fuel in the K Basin posing a
         threat to human health and the environment. Despite the Board’s concern, the
         amendment delayed the start of the spent nuclear fuel removal operations for the
         K East Basin by 13 months and completion by 7 months, as shown in Table 2-1:




                                         10                           Report No. 2003-P-00002
             Table 2-1: Milestone Revisions From May 2000 Amendment

                                            Due Date
                                             Prior to   Amendment         (Delay)/
               Milestone                   Amendment     Due Date       Acceleration

 Initiate removal of K East                 11/30/01      12/31/02       (13 months)
 spent nuclear fuel (M-34-17)

 Complete removal of K West Basin            4/30/03      12/31/02        4 months
 spent nuclear fuel (M-34-18A)

 Complete removal of K East Basin           12/31/03       7/31/04       (7 months)
 spent nuclear fuel (M-34-18B)

 Initiate full scale K East Basin sludge     7/31/04     12/31/2002      19 months
 removal (M-34-08)

 Complete sludge removal from                8/31/05       8/31/04       12 months
 K Basins (M-34-10)

 Complete water removal for K East          10/31/06      10/31/06       No Change
 Basin (M-34-24)

 Source: Change Control Form for May 2000 FFACO Amendment


March 2001 Amendment Approved Without Sufficient Assurances

On March 27, 2001, Region 10 approved a FFACO amendment to implement
DOE’s Alternate Fuel Transfer Strategy, as well as other project scope changes,
without obtaining reasonable assurance that the strategy would enable DOE to
meet the milestone due dates specified by the FFACO. This amendment was
approved even though DOE was already behind schedule for meeting milestone
due dates for removing spent nuclear fuel from the basins.

DOE said the amendment was necessary to assure the remaining Spent Nuclear
Fuel Project work could be performed within the approved funding and meet
enforceable FFACO milestones. Prior to the amendment, DOE was required to
retrieve, clean, package, and remove spent nuclear fuel from each basin and
transport it directly to the Canister Vacuum Drying Facility. Under the new
strategy, all spent nuclear fuel stored in the K East Basin will be transferred to the
K West Basin for temporary storage and, after treatment, transported to the Cold
Vacuum Drying Facility. According to DOE, this new strategy streamlines the
removal process for the K East Basin. The new strategy also includes other
actions to improve the rate of removal from the K West Basin.

If DOE meets the revised remediation schedule established by the March 2001
amendment, the initiation and completion of spent nuclear fuel removal from the
K East Basin will be accelerated by 1 and 2 months, respectively. In addition,

                                     11                        Report No. 2003-P-00002
both initiation and completion of water removal from the K East Basin will be
accelerated by 13 months. However, the amendment does not accelerate the
overall completion date for removal of all spent nuclear fuel, sludge, and water
from the basins. The amendment also delays the initiation and completion of
water removal from the K West Basin by 13 and 11 months, respectively.

                Table 2-2: March 2001 FFACO Amendment Revisions

                                           Due Date
                                            Prior to    Amendment          (Delay)/
              Milestone                   Amendment      Due Date        Acceleration

 Complete removal of fuel, sludge,          7/7/07       No change           None
 water, and debris from K Basins
 (M-34-00A)

 Initiate removal of K East Basin          12/31/02       11/30/02         1 month
 spent nuclear fuel (M-34-17)

 Complete removal of all K Basin            7/31/04      No change           None
 spent nuclear fuel (M-34-18B)

 Initiate K West Basin water removal        9/30/04       10/31/05       (13 months)
 (M-34-21-T01)

 Complete K West Basin water                9/30/05        8/31/06       (11 months)
 removal (M-34-22)

 Initiate K East Basin water removal       10/31/05        9/30/04        13 months
 (M-34-23)

 Complete removal of K East Basin          10/31/06        9/30/05        13 months
 water (M-34-24)

 Complete transfer of K East Basin          7/31/04        5/31/04         2 months
 spent nuclear fuel to K West Basin
 (M-34-25-T01) *

 * New target milestone that replaced an interim milestone requiring complete removal
   of spent nuclear fuel from the K East Basin.
 Source: Change Control Form for March 2001 FFACO Amendment


Of particular concern was that the Region approved the March 2001 amendment
even though DOE had not provided the Region with cost comparison information
the Region had requested in January 2001, and also had not developed an
adequate technical plan to support the requested strategy and milestone changes.

Approximately 2 months before approving the amendment, the Region expressed
concern to DOE about the requested strategy change. During a January 2001
FFACO milestone review meeting, the Region questioned the justification for
DOE’s proposed strategy change and said DOE needed to provide the costs for

                                     12                         Report No. 2003-P-00002
various parts of the strategy. The Region also requested DOE to provide a
comparison of the proposed amendment with the May 2000 amendment by
dollars, milestones, staff, risk to worker safety, and risk to health and the
environment, and said it would not approve any change request until a one-to-one
comparison between the existing and proposed baseline was provided.

Although DOE provided the Region with a comprehensive plan in February 2001,
the Region acknowledged that the plan did not contain sufficient detail. The
Region also said DOE never provided it with the cost and risk information
requested in January 2001. Therefore, the Region did not have sufficient
technical and scheduling detail to have reasonable assurance that the revised
strategy and milestones were achievable. The Region also said that it expressed to
DOE a concern that funding may not be sufficient to resolve unanticipated issues
because DOE’s funding contingency for the project would be eliminated by the
amendment. Nonetheless, the Region approved the amendment.

This amendment was approved even though DOE was behind schedule for
meeting milestone due dates for removing the spent nuclear fuel. Prior to this
amendment, DOE was required under FFACO Interim Milestone M-34-18A to
remove all Spent nuclear fuel from the K West Basin by December 31, 2002.
DOE’s technical schedule supporting compliance with the milestone specified that
51 multi-canister overpacks were required to be removed from the K West Basin
by September 2001 in order to meet the due date for completion of the milestone.
However, DOE’s most current projections at the time the FFACO was amended in
March 2001 showed that only 21 of the necessary 51 multi-canister overpacks
(41 percent) would be removed by September 2001.

Sufficient Interim Milestones Not Established

Sufficient enforceable interim milestones for removal of spent nuclear fuel were
not included in the March 2001 FFACO amendment, even though DOE was
behind schedule at the time the amendment was approved. The FFACO specifies
that both major and interim milestones are enforceable. Prior to the amendment,
spent nuclear fuel removal requirements were established through two interim
milestones:

•   Milestone M-34-18A: This required the removal of all spent nuclear fuel
    from the K West Basin by December 31, 2002.

•   Milestone M-34-18B: This required the removal of all spent nuclear fuel
    from the K East Basin by July 31, 2004.

However, despite the fact that DOE was already behind schedule, the March 2001
amendment did not establish additional interim milestones for the K West Basin

                                13                          Report No. 2003-P-00002
preceding the December 31, 2002 due date. Additional interim milestones would
have allowed the Region to undertake enforcement actions at an earlier stage to
resolve DOE’s inability to meet scheduled due dates.

Region Response to Missed Milestones Not Sufficient

Region 10 did not take sufficient response actions on DOE’s inability to complete
two target milestones by the due dates specified in the FFACO:

•   Milestone M-34-06-T01: This milestone required DOE to initiate cleaning
    operations for spent nuclear fuel canisters in the K West Basin by
    December 31, 2000. In December 2000, DOE submitted a FFACO change
    request to delay the milestone until August 31, 2001, in order to complete the
    engineering design and to procure, fabricate, install, and test the equipment.
    The Region immediately denied the change request, stating:

           The project had already committed itself to miss this target
           date before approaching the EPA . . . EPA has been concerned
           with the general pattern of work deferral in the past years, and
           in particular any work that represents actual cleanup. . . .

    However, while the Region denied DOE’s request to extend the milestone, it
    did not initiate any formal followup action requesting that DOE ensure timely
    completion of this work. The Region told us that denying the change request
    was a formal action and, under the FFACO, milestones do not change if EPA
    denies a change request. The Region also said that denying a change request
    puts DOE under formal notice that DOE is expected to comply with the
    milestones.

    Despite the Region’s denial, DOE notified the Region in February 2001 that
    the milestone would not be completed until August 31, 2001. The work was
    not actually completed until March 14, 2002, more than 14 months past the
    milestone due date.

•   Milestone M-34-26-T01: This milestone required that DOE approve by
    September 30, 2001, the start of construction of the K East and West Basin
    facility modifications for the Alternate Fuel Transfer Strategy cask
    transportation system. On September 27, 2001, 3 days before the milestone
    due date, DOE notified the Region that design issues made it impossible to
    meet the milestone, and it hoped to resolve the issues and approve the start of
    construction by October 31, 2001. Again, the Region did not initiate a
    followup action. DOE eventually completed the milestone on November
    16, 2001, 46 days late. DOE’s delay in completing Milestone M-34-26-T01
    contributed to DOE’s inability to meet Milestone M-34-29, which required

                                 14                          Report No. 2003-P-00002
             completion of facility modifications for the Alternate Fuel Transfer Strategy
             by March 31, 2002.

Prior Reports Noted Similar Issues

          Weaknesses with DOE’s Spent Nuclear Fuel Project have also been identified in
          recent reviews by GAO and the DOE OIG. In 1998, GAO noted completion of
          the project had been extended by over 4 years and the original cost estimate had
          nearly doubled to about $1.4 billion. According to GAO, DOE’s contractor did
          not use consistent and reliable estimating procedures to develop baseline costs,
          and did not effectively use baseline schedules. In 1999, GAO reported that the
          latest schedule called for the Spent Nuclear Fuel Project to be complete almost
          6 years beyond the original schedule, with project costs about $1 billion more than
          the original estimate (i.e., $1.7 billion). GAO reported progress had been made in
          resolving some of the issues cited in its 1998 report, but indicated that achieving
          the project’s long term goals was uncertain. Finally, in April 2002, the DOE OIG
          reported that persistent equipment problems and process complexities may keep
          DOE from meeting its planned full production schedule. The DOE OIG said
          performance of the Spent Nuclear Fuel Project, specifically as it relates to the
          milestones established by the FFACO, may be in jeopardy unless these issues can
          be overcome. Furthermore, the DOE OIG said that DOE’s planning assumptions
          appear to be overly optimistic.

Delays Increase Risk of Releases

          A delay in remediation of the basins, particularly K East, increases the potential
          for releases of high levels of radionuclides into the environment. In October
          1997, the Defense Nuclear Facilities Safety Board stated in its report, Review of
          the Hanford Spent Nuclear Fuel Project (DNFSB/TECH-17, page 1-1):

                 As long as deteriorating spent nuclear fuel remains in the
                 K-Basins, a serious threat to the health and safety of the public
                 and of on-site workers remains at Hanford. A significant slippage
                 in the schedule for the safe removal, stabilization, and interim
                 storage of this fuel therefore represents a major safety concern.

          According to DOE, the increase in risk posed by the basins is directly proportional
          to the continued aging of the basins. As a result, the potential for the basins to
          lose structural integrity and release high levels of radionuclides increases as the
          basins continue to age. The K Basins have exceeded their 20-year life by more
          than 20 years. The basins were designed to standards of the 1950s, and were not
          designed to modern seismic criteria. Consequently, their structural integrity could
          fail during a seismic event (such as an earthquake) and allow large volumes of

                                           15                           Report No. 2003-P-00002
                  radioactive water to leak into the soil, groundwater, and Columbia River. Also,
                  failure to maintain a sufficient amount of water to cool the spent nuclear fuel and
                  sludge could allow spent nuclear fuel and sludge to dry and heat, resulting in an
                  airborne release of radionuclides.

                  Tritium concentrations in the basin water measure 3 million picocuries per liter
                  (pCi/L). Further, the groundwater within the 100-K Area is significantly
                  contaminated with radionuclides and other hazardous constituents. In 1998, a
                  groundwater sampling well near the K East Reactor showed a tritium
                  concentration of 2.36 million pCi/L, 118 times the Federal Drinking Water
                  Standard of 20,000 pCi/L. Currently, most of the contaminated groundwater
                  within the 100-K Area is not undergoing remediation, and some of it is
                  discharging into the Columbia River. Further, the K East Basin leaked
                  approximately 15 million gallons of contaminated water to the soil in the 1970s
                  and another 90,000 gallons in early 1993. However, no studies or evaluations
                  were performed to determine the ecological impacts of the leaks.

                  DOE estimates that 400 multi-canister overpacks will be required for removal of
                  all spent nuclear fuel from the K Basins. As of May 31, 2002, DOE had removed
                  67 overpacks from the K West Basin. To determine whether DOE will meet the
                  removal due dates specified by the FFACO, we projected the amount of time
                  required to remove the remaining spent nuclear fuel from the basins using DOE’s
                  average removal rate for the period from January through August 20021. We
                  projected that there would be delays for the FFACO removal due dates, as shown
                  in Table 2-32:




         1
         Although fieldwork was completed in May 2002, we included spent nuclear fuel removal data for the
months of June through August 2002 in order to improve the accuracy of our projection.
         2
           The projected delays are based on limited data, and removal of the spent nuclear fuel is subject to
uncertainties. DOE’s ability to maintain or increase the removal rate is dependent upon the initiation and completion
of the transfer of spent nuclear fuel from the K East to the K West Basin in accordance with the FFACO schedule.
Also, DOE’s current removal rate is based on removing K West Basin spent nuclear fuel, which is in better condition
than the K East Basin spent nuclear fuel. K East Basin spent nuclear fuel removal, transfer, and subsequent removal
from the K West Basin may be more complex because of its poor condition. This complexity may slow down the
removal process. The efficiency of spent nuclear fuel removal is also dependent upon equipment reliability and
maintaining adequate staffing and funding.

                                                         16                               Report No. 2003-P-00002
                       Table 2-3: Projected Spent Nuclear Fuel Removal Delays

                                                              Projected         Projected
                 Milestone                    Due Date      Completion Date       Delay

          M-34-18A: Remove 190         December 31, 2002       August 2003         9
          multi-canister overpacks                                               months

          M-34-27T-01: Remove 244         May 31, 2003         March 2004         10
          multi-canister overpacks                                               months

          M-34-28: Remove 311          December 31, 2003     December 2004        12
          multi-canister overpacks                                               months

          M-34-18B: Remove All            July 31, 2004      November 2005        16
          Spent Nuclear Fuel                                                     months


         Further, removal of the contaminated sludge and water from the basins cannot be
         completed until after removal of the spent nuclear fuel is completed.

Reasons for Oversight Weaknesses

         Region 10 oversight was insufficient because it did not obtain sufficient
         information to determine whether revisions were necessary and ensure that
         sufficient planning had been completed. In addition, the Region has not placed
         sufficient emphasis on resolving DOE’s inability to meet FFACO milestones.

         Problems With the May 2000 Amendment

         Region 10 informed us that the May 2000 amendment was approved because it
         believed the revised remediation schedule had a better chance of success and
         would result in lower worker exposure to radiation. However, the Region was
         unable to provide us with documentation showing that the delay in removing the
         spent nuclear fuel from the K East Basin was necessary, would significantly
         reduce worker exposure to radiation, and would not increase risks to human health
         and the environment.

         Problems With the March 2001 Amendment

         According to Region 10, it approved the March 2001 amendment based on DOE’s
         assurance that there were no technical obstacles that could adversely affect
         successful implementation of the Alternate Fuel Transfer Strategy and compliance
         with the revised FFACO remediation requirements. In addition, the Region said
         that it approved the amendment because DOE provided assurance that it would
         not request any changes to major milestones associated with the remediation of
         the basins. The Region also told us that it believed the amendment was preferable

                                         17                         Report No. 2003-P-00002
         to continuing to follow the old technical path, which was unlikely to meet the
         schedule, and that the Alternate Fuel Transfer Strategy had a better chance of
         success. However, as noted earlier in this chapter, DOE has continued to fall
         behind schedule for meeting critical FFACO milestones.

         Region 10 has not placed sufficient emphasis on resolving DOE’s inability to
         meet the remediation schedule established by the FFACO. The Region told us
         that it did not include any enforceable interim milestones in the March 2001
         amendment because it believed the number of milestones established by the
         amendment was sufficient to ensure compliance with the FFACO. However, the
         Region also said that it had not been optimistic about DOE’s ability to meet due
         dates specified by the FFACO at the time of the March 2001 amendment.
         Because the earliest enforceable milestone requiring the removal of a specific
         quantity of spent nuclear fuel is not until December 2002, the Region has not been
         able to initiate a formal enforcement action requiring DOE to improve its removal
         operations. In our opinion, use of interim milestones for the 21-month period
         preceding December 2002 would have provided the Region with the ability to
         initiate an enforcement action.

         Problems With DOE’s Inability to Meet Target Milestones

         The Region said that it did not take any followup actions in response to DOE’s
         inability to meet Target Milestones M-34-06-T01 and M-34-26-T01 because
         target milestones are designated as unenforceable requirements under the FFACO.
         We agree that these two target milestones were not enforceable under the FFACO.
         However, target milestones are incorporated into the FFACO for the purpose of
         tracking progress toward meeting interim and major milestones. Therefore, a
         missed target milestone provides the Region with notification that DOE is not
         making sufficient progress toward meeting enforceable remediation requirements
         of the FFACO.

         We note that the FFACO does not preclude the Region from working proactively
         with DOE to resolve compliance issues. A more proactive approach by the Region
         in resolving compliance issues pertaining to target milestones may improve
         DOE’s compliance with enforceable milestones.

Conclusion

         Despite concerns raised by the Defense Nuclear Facilities Safety Board in 1994
         about continued storage of spent nuclear fuel in the K East Basin, no spent nuclear
         fuel has been removed from the basin to date, and DOE is now behind schedule
         for meeting FFACO milestones that are critical to reducing risks to human health
         and the environment. Additional delays may erode the confidence of Congress,


                                         18                          Report No. 2003-P-00002
                 the general public, and other stakeholders in the achievability and protectiveness
                 of the remedial action. Region 10 needs to be more proactive in its oversight of
                 the remedial action. The Region needs to ensure that priority is placed on
                 reducing the risks posed by the K East Basin, since it poses the greatest risk to
                 human health and the environment. DOE’s history of management weaknesses
                 for the project, delays in the remediation schedule for the basins, and the
                 significant human health and environmental risks necessitate improvements in
                 Region 10's oversight activities.

Recommendations

                 We recommend that the Region 10 Administrator:

                  2-1. Monitor progress of DOE toward meeting K Basins milestones, including
                       M-34-17, to initiate removal of K East Basin spent nuclear fuel, M-34-08,
                       to initiate full scale K East Basin sludge removal, and M-34-18A3, to
                       remove spent nuclear fuel equivalent to 957 tons of heavy metal. Reaffirm
                       EPA’s expectation that milestones will be met unless a timely request for
                       an extension or change is received and good cause exists for the request as
                       defined by the FFACO. In addition:

                          a.      Place priority on remediating the K East Basin, focusing on
                                  removing spent nuclear fuel, sludge, debris, and water.

                          b.      If DOE does not complete the K Basins milestones in a timely
                                  manner, the Region should respond, consistent with FFACO
                                  enforcement provisions, including penalties, to ensure the work is
                                  completed as expeditiously as possible.

                  2-2. Prior to approval by the Region, ensure that any necessary amendments to
                       the FFACO that revise remediation requirements and/or the remediation
                       schedule for the 100-K Area including the K Basins:

                          a.      Are supported with performance and planning information that
                                  provide the Region with reasonable assurance that the revised
                                  requirements and schedule are necessary, achievable, and reduce
                                  risks to human health and the environment as expeditiously as
                                  possible.


        3
          A June 11, 2002 amendment to the FFACO revised Milestone M-34-18A. The milestone was revised from
a requirement to remove 190 multi-canister overpacks to a requirement to remove 957 metric tons of heavy metal
from the K West Basin. According to the amendment, the only effect of the change is to measure the amount of fuel
removed in terms of metric tons of heavy metal rather than a specified number of multi-canister overpacks.

                                                       19                              Report No. 2003-P-00002
                b.     Include enforceable interim milestones and due dates that enable
                       the Region to more timely resolve insufficient remediation
                       progress by DOE through enforcement actions.

          2-3. Require formal followup actions in response to missed target milestone
               due dates by DOE. These followup actions should establish the Region’s
               expectations on resolving performance issues.

Agency Comments and OIG Evaluation

         Region 10 agreed with the recommendations. In response to Recommendation
         2-1, the Region said the recommendation reflects its approach to management of
         K Basin performance. The Region also indicated that it monitors progress
         through regular contacts with DOE, including FFACO milestone status meetings,
         site inspections, and multi-agency meetings.

         In regard to Recommendation 2-2, the Region said that it does not anticipate
         receiving any milestone change packages from DOE in the near future. However,
         it did not explain actions planned or taken to implement the recommendation
         when these situations exist. The Region also stated in response to
         Recommendation 2-3 that DOE has been providing via formal letter to EPA an
         explanation of missed target dates, an analysis of impacts to the project, and a
         plan for resolution of the performance issue. However, actions planned or taken
         to implement the recommendation, when these situations do not exist, were not
         included in the response.

         Despite the Region’s stated monitoring activities, DOE was behind schedule in
         meeting milestones that are critical to reducing human health and environmental
         risks as of the end of May 2002 when our fieldwork was completed. In addition,
         remediation of the K East Basin, the basin posing the most risk to human health
         and the environment, has not been started. Therefore, the Region needs to be
         more proactive in addressing and resolving performance issues associated with the
         remedial action.

         In response to the final report, the Region needs to provide specific actions
         planned or taken for final resolution of the recommendations presented in this
         chapter. Also, milestones for completion of planned actions will be needed for
         resolution of the recommendations.




                                         20                         Report No. 2003-P-00002
                             Chapter 3
         Additional Oversight Necessary for
        Groundwater Interim Remedial Action
        Region 10 has not provided sufficient oversight of DOE’s pump-and-treat interim
        remedial action for groundwater contaminated with hexavalent chromium within
        the Hanford Site 100-K Area. Even though the pump-and-treat system was not
        achieving the cleanup standard specified by the Record of Decision (ROD), the
        Region did not take sufficient actions to ensure DOE operated the system
        effectively during the 3-year period ending September 2000. In addition, the
        Region did not take sufficient actions to ensure that necessary upgrades were
        completed timely. Hexavalent chromium has continued to discharge into the
        Columbia River at levels that exceed State of Washington standards, and may be
        adversely affecting some young salmon, trout, and other ecological receptors.
        These conditions occurred because the Region has not placed sufficient emphasis
        on timely resolution of remediation system performance issues and enforcement.

Background

        Groundwater Contamination Poses Ecological Risk

        In 1994, DOE completed its Qualitative Risk Assessment (risk assessment) for the
        100-KR-4 Groundwater Operable Unit. The risk assessment identified that
        hexavalent chromium potentially posed unacceptable ecological risks and
        potentially required an interim remedial action. Chromium, a metallic element,
        may be converted to the hexavalent state under strongly oxidizing conditions,
        making it highly soluble in water and thus mobile in the aquatic environment.

        Hexavalent chromium has continued to discharge into the Columbia River at
        levels that exceed 10 micrograms per liter (ug/L), the State of Washington’s
        Chronic Ambient Water Quality Standard for the Protection of Freshwater
        Aquatic Life for the contaminant. Under the Endangered Species Act, the
        Columbia River spring chinook salmon and steelhead trout have been listed as
        endangered. The risk assessment for 100-KR-4 Operable Unit concluded that
        groundwater from the 100-K Area discharging into the Columbia River exceeded
        acute and chronic ecological-based risk thresholds and posed risks to young
        chinook salmon and trout living in the river. The risk assessment also disclosed
        that the 100 Area is a known area of chinook spawning.

        The ecological risks posed by the 100-K Area were explained in more detail in
        DOE’s proposed plan for remediation of the 100-K Area groundwater. DOE

                                        21                         Report No. 2003-P-00002
disclosed in the proposed plan that sampling results during a limited field
investigation indicated that hexavalent chromium concentrations in monitoring
wells near the river and riverbank seepage pose potential risks to ecological
receptors. The proposed plan also stated (DOE/RL-94-113 Rev.0, page 5):

       Potential ecological receptors along the Hanford Reach of the
       Columbia River, where the groundwater from the 100-KR-4
       Operable Unit discharges, include fish and other organisms that
       live and spawn in the river, on the river bottom, and along the
       shoreline; birds and other animals that use the river and adjacent
       wetlands; and predators, such as the herons, that consume aquatic
       organisms. Receptors may come in contact with chromium-
       contaminated groundwater as it discharges into and mixes with
       water in the river, or as it issues from riverbank seepage before
       flowing into the river.

DOE stated in the proposed plan that 100-K Area riverbed sediments were an
especially sensitive region of potential exposure to aquatic organisms.

Groundwater Pump and Treat System Installed in the 100-K Area

The ROD between DOE and EPA for the Hanford 100-HR-3 and 100-KR-4
Operable Units requires interim remedial actions for the Hanford Site’s 100-K
Area. The ROD requires DOE to perform an interim remedial action for a
groundwater plume contaminated with hexavalent chromium located between the
area’s 116-K-2 Trench and the Columbia River (see Figure 3-1). The ROD
required DOE to install a pump-and-treat remediation system to remove the
hexavalent chromium from the groundwater. The ROD specifies the system
achieve a cleanup (removal) standard for hexavalent chromium of 22 ug/L in
compliance wells used to measure the effectiveness of the interim remedial action.




                                22                          Report No. 2003-P-00002
                    Figure 3-1: Pump and Treatment System Capture Zone
                    (Source: ROD for 100-HR-3 and 100-KR-4 Operable Units)




Requests to Improve System Not Effective

          Even though the pump-and-treat system was not achieving the cleanup standard
          specified by the ROD, the Region did not take sufficient actions to ensure DOE
          operated the system effectively during the 3-year period ending September 2000.
          During this period, the composite withdrawal rate for the system’s extraction
          wells was not increased, as had been recommended in DOE’s annual performance
          summary reports for calendar years 1998 through 2000.




                                          23                            Report No. 2003-P-00002
System Not Meeting Cleanup Standard

Sampling results from October 1997 through December 2001 showed that the
average hexavalent chromium levels in four of the wells have significantly
exceeded the ROD’s cleanup standard. These data indicate that the system has
not been effective in reducing the contamination levels. Figure 3-2 shows how
the average hexavalent chromium levels generally exceeded the 22 ug/L limits by
large amounts.
                                                          Figure 3-2

                                      Avg Hexavalent Chromium Concentration
                                         in Compliance Wells by Fiscal Year
  Hexavalent Chromium in ug/L




                                             (Source: DOE Contractor Sampling Data)
                                150

                                100

                                 50

                                  0
                                       18       20            *112A     114A         117A         *126
                                                  100-KR-4 Area Compliance Wells
                                               * Well 126 replaced well 112A during 2001

                                            FY 1998       FY 2000        FY 2001        FY 2002
                                            FY 1999

                                              (Bold line denotes 22 ug/L cleanup standard)


In its annual performance reports covering the operations of the pump-and-treat
system for calender years 1998 through 2000, DOE acknowledged that the system
was not achieving the cleanup standard specified by the ROD. The annual
performance reports for 1998 through 2000 estimated that the system only
captured about 70 to 76 percent of the groundwater plume each year.

Pumping Rates Not Increased To Improve System Effectiveness

DOE’s Remedial Design Report/Remedial Action Work Plan (work plan)
identified that a pump-and-treat system consisting of six extraction wells would
sufficiently capture the hexavalent chromium groundwater plume and achieve the
cleanup standard specified by the ROD. The work plan specified that the
withdrawal rate for each extraction well was expected to average 25 gallons per
minute (gpm) and that the composite withdrawal rate for the system was expected
to total 150 gpm. The work plan also disclosed that the system was designed to
operate at a maximum composite withdrawal rate of 200 gpm.

                                                         24                              Report No. 2003-P-00002
Although the system was not making substantial progress toward meeting the
22 ug/L cleanup standard, DOE did not increase the composite withdrawal rate, as
recommended in its annual performance summary reports for 1998 through 2000.
The 1998 report recommended increasing the rate to 200 gpm and the 1999 and
2000 reports recommended increasing the rate to 195 gpm. Furthermore, DOE
operated the extraction wells at rates that resulted in composite withdrawal rates
that fell below the 150 gpm rate specified by the work plan for 7 of the 12 quarters
covering the 3-year period ending September 2000.

The failure of one of the six extraction wells in September 1997 during system
acceptance testing contributed to the low withdrawal rates for Fiscal 1998. Based
on five operating extraction wells and the average nominal withdrawal rate of 25
gpm specified by the work plan, DOE should have been able to achieve a
composite withdrawal rate of at least 125 gpm for Fiscal 1998. However, the 125
gpm composite rate was met or exceeded for only 2 of the 4 quarters of Fiscal
1998. Details on withdrawal rates are in Figure 3-3.

                                                   Figure 3-3

                             Avg Composite Withdrawal Rate, 1998-2002
                                    (Source: DOE Contractor Extraction Well Data)
                       200
  Gallons per Minute




                       150

                       100

                        50

                         0
                             1998         1999           2000           2001          2002

                                                        YEAR

                              1ST QTR         2ND QTR           3RD QTR           4TH QTR


                                     (Bold line denotes rate expected in work plan)



A replacement for the extraction well that failed in 1997 became operational
during October 1998. However, the composite withdrawal rate remained below
the 150 gpm rate specified by the work plan until the second quarter of Fiscal
1999. The composite rate fell below 150 gpm again for the second and third
quarters of Fiscal 2000. DOE and the Region attributed the drop to scheduled and
unscheduled maintenance; system modifications; and outages associated with
weather, power loss, and other acts of nature. In addition, the Region said DOE
did not always operate all the wells continuously because it considered the system

                                                 25                               Report No. 2003-P-00002
          to be fully operational as long as at least one well was in operation. We
          acknowledge that maintenance, modifications, and unforseen events may
          temporarily reduce the system’s treatment capacity. However, the ROD specified
          that the system shall be designed to run on a continuous basis such that routine
          procedures and mechanical maintenance can be conducted with minimal impact to
          system operations.

          Region’s Actions Not Sufficient

          Even though the pump-and-treat system was not making measurable progress
          toward the cleanup standard specified by the ROD, the Region did not take
          sufficient actions to ensure DOE operated the system effectively during the 3-year
          period ending September 2000. During this period, the Region made requests to
          DOE for system improvements primarily through comments to work plans,
          e-mails, and meetings with DOE. Despite the low composite withdrawal rates and
          high contamination levels in the compliance wells, the Region did not escalate its
          response to an enforcement action.

          In October 2000, the Region issued a memo to DOE requesting that the system be
          optimized and run more reliably and capture a much higher percentage of the
          plume. DOE subsequently added a seventh extraction well. The addition of this
          well increased the composite withdrawal rate to 182 gpm (a 26 gpm average per
          well). However, the rate was still below the 195 gpm rate recommended by the
          1999 and 2000 annual performance summary reports.

          In our view, the Region should have initiated an enforcement action in Fiscal
          1998 when it first became apparent that DOE was having difficulty meeting a
          composite withdrawal rate based on the 25 gpm individual well rate.
          Furthermore, the Region should have required DOE to implement the
          recommended composite withdrawal rates specified in the annual performance
          summary reports.

Actions Not Sufficient to Ensure That Upgrades Were Timely

          Region 10 did not take sufficient actions to ensure that the upgrades necessary for
          improving the pump-and-treat system’s effectiveness were completed timely.
          These upgrades involved installation of two additional extraction wells so that a
          higher percentage of the contamination plume could be captured.

          Seventh Extraction Well Not Placed In Operation Timely

          Although the Region requested in June 1998 that DOE upgrade the system with a
          seventh extraction well, the Region did not take sufficient action to ensure that an


                                           26                           Report No. 2003-P-00002
additional well was placed in operation by the Fall of 1999. The well did not
become fully operational until March 2001, or 33 months after it was requested.

Based on its evaluation of DOE’s April 1998 performance report covering the
interim remedial actions for both the 100-H and 100-K Areas, the Region
recommended in a May 1998 memo to DOE that it install an additional extraction
capable well at the east end of the pump-and-treat system. The Region had
determined that the system was not capturing the eastern edge of the
contamination plume. In June 1998, the Region followed up with another memo,
informing DOE that the additional well should be installed and operated during
the first part of Fiscal 1999. However, a specific enforceable deadline was not
specified in the memo. The Region also stated in the memo:

       Performance data should be collected for enough months during
       FY99 such that the next issue of the Performance Evaluation
       Report in September ‘99 documents the effect of this extraction
       well on the plume and capture zone.

The Region discovered in August 1999, over 10 months into Fiscal 1999, that the
additional extraction well was installed but was not connected to the pump-and-
treat system. According to the Region, the well was not connected because
DOE’s contractor redirected the funding intended for the well connection to other
projects. The Region responded by issuing to DOE an August 1999 memo
requesting that it ensure the well connection was funded and performed in early
Fiscal 2000. However, the Region did not establish a specific enforceable
deadline. The Region did not follow up on its request until October 2000, more
than 1 year later, at which time it issued a memo to DOE requesting again that the
well be connected to the pump-and-treat system. This memo also did not
establish a specific enforceable deadline. DOE finally connected the well and
made it fully operational on March 4, 2001, or 33 months from the Region’s June
1998 request.

Request For An Eighth Extraction Well Was Untimely

The Region did not request that DOE upgrade the system with an eighth
extraction well and other system modification until April 2001, even though it
was aware since October 1997 that the western end of the system was not
capturing a sufficient percentage of the plume to meet the cleanup standard
specified by the ROD. Consequently, the upgraded system did not become fully
operational until June 2002, almost 5 years after the Region was aware that the
additional well in this area may be necessary.

The Region became aware in October 1997, the first month of operations for the
pump-and-treat system, that the two extraction wells (K-119A and K-120A) on

                                27                          Report No. 2003-P-00002
the western end of the remediation system were not capturing a sufficient amount
of the contamination plume (see Figure 3-4). To increase the percentage of the
plume capture between the two wells, DOE recommended in its 1998 annual
summary performance report that the withdrawal rate for each of the two wells be
increased to 40 gpm, although the report noted care needed to be taken to not
disturb a culturally sensitive area at the location. Despite the recommendation,
the wells were operated during 1999 at an average withdrawal rate of 27 and 21
gpm, respectively. In its 1999 summary performance report, DOE revised the
recommended withdrawal rate for each of the two wells to 25 gpm.




                               28                          Report No. 2003-P-00002
Figure 3-4: Chromium Capture Zone for System’s Extraction Wells
(Source: 1998 Annual Summary Report, February to December 1998, for the
  100-HR-3 and 100-KR-4 Pump-and-Treat Operations and Operable Units)




                                  29                           Report No. 2003-P-00002
          The Region told us that DOE agreed in Fiscal 2000 to install an additional
          extraction well between Wells K-119A and K-120A. According to the Region,
          DOE initially identified that the well should be placed within the sensitive area,
          and negotiations were necessary during 2000. In early Fiscal 2001, DOE decided
          the extraction well could be placed between Wells 119A and 120A without
          disturbing the culturally sensitive area.

          In April 2001, the Region formalized the need to increase the effectiveness of the
          pump-and-treat system after completing its first Five-Year Review of the remedial
          actions at the four NPL sites at Hanford. In the review, the Region included a
          request that DOE install an extraction well to bridge the gap between existing
          extraction Wells K-119A and K-120A.

          The Region acknowledged that the addition of the eighth extraction well and other
          system modifications could have been accomplished sooner, and indicated it took
          a conservative approach because of the culturally sensitive area. Consideration of
          replacing the pump-and-treat system (eventually dismissed because of high cost)
          also contributed to the delay. We agree that the Region and DOE need to take
          reasonable and appropriate precautions, but the Region needs to ensure that all
          feasible remediation alternatives are addressed timely. It took the Region from
          October 1997 to April 2001, or more than 3 years, just to request that DOE add
          the eighth extraction well. According to the Region, the eighth extraction well did
          not become fully operational until June 2002, or almost 5 years after the Region
          was aware that the additional well may be necessary.

Insufficient Emphasis Placed on Resolution of Issues

          These conditions occurred because the Region has not placed sufficient emphasis
          on timely resolution of remediation system performance issues and enforcement
          of the requirements specified by the ROD.

          During the period from October 1997 through December 2001, the Region
          generally addressed performance issues pertaining to the pump-and-treat system
          by providing DOE with corrective action requests and recommendations, but did
          not establish enforceable requirements and deadlines. For example, the Region
          told us that on several occasions it recommended that DOE increase extraction
          well withdrawal rates in order to capture a higher percentage of the contamination
          plume. According to the Region, most of these recommendations were made
          informally to DOE. The Region also said DOE did not comply with its
          recommendations for increasing the withdrawal rates.

          The Region’s followup actions have not resulted in timely upgrades and resolution
          of performance issues for the pump-and-treat system. Although the pump-and-


                                          30                           Report No. 2003-P-00002
         treat system had been in operation for more than 4 years as of the end of
         December 2001, the system had not made significant progress toward meeting the
         cleanup standard of 22 ug/L specified by the ROD.

Conclusion

         DOE’s work plan identified that six extraction wells operating at a composite
         withdrawal rate of 150 gpm would achieve the cleanup standard specified by the
         ROD. Although these specifications established a remediation system that has not
         proved capable of achieving the cleanup standard specified by the ROD, the
         Region’s response actions did not result in timely resolution of system operation
         and design weaknesses. Consequently, hexavalent chromium has continued to
         discharge into the Columbia River at levels that exceed 10 ug/L, the State of
         Washington’s Chronic Ambient Water Quality Standard for the Protection of
         Freshwater Aquatic Life for the contaminant. Hexavalent chromium poses an
         ecological threat to some fish species living in the Columbia River. Therefore,
         Region 10 needs to place more emphasis on timely followup of requested
         corrective actions and enforcement of the remediation requirements specified by
         the ROD to ensure timely resolution of performance issues.

Recommendations

         We recommend that the Region 10 Administrator:

             3-1. Evaluate the performance of the upgraded 100-K Area pump-and-treat
                  system that went on-line in May 2002 to determine if it achieves the
                  remedial action objectives of the ROD. If remedial action objectives are
                  not being met, pursue timely and formal followup and/or enforcement
                  actions that include specific corrections, actions, and deadlines to ensure
                  that:

                   a.     Pump-and-treat system downtime is minimized and the composite
                          withdrawal rate for extraction wells is maintained at a rate that
                          maximizes the system’s effectiveness with capturing and
                          remediating the contaminated groundwater.

                   b.     Any future upgrades to the pump-and-treat system that are
                          necessary for achieving the ROD’s cleanup standard are completed
                          by specific enforceable due dates.

                   c.     DOE evaluates remediation alternatives to the pump-and-treat
                          system if hexavalent chromium levels in compliance wells do not
                          meet the ROD’s cleanup standard by the end of Fiscal 2003.

                                            31                           Report No. 2003-P-00002
Agency Comments and OIG Evaluation

         The Region agreed with the recommendation. The Region stated that it plans to
         ask the U.S. Geological Survey to recommend any operational changes that may
         be appropriate to facilitate achievement of remedial action objectives. The
         Region also said that the pump-and-treat system has been operating nearly
         continuously at about 260 gpm since the May 2002 expansion. If future upgrades
         to the system are necessary, the Region said specific enforceable dates for
         completion would be pursued. The Region said that evaluation of alternatives to
         the pump-and-treat system has been an ongoing part of the remedial action, rather
         than an activity to commence by the end of fiscal year 2003. The Region
         acknowledges that the remedial action objectives have yet to be achieved in
         monitoring wells downgradient of the groundwater recover and treatment system
         and the groundwater being recovered continues to have high levels of chromium.

         The Region needs to provide specific actions planned for final resolution
         Recommendation 3-1 (a) and (c). Furthermore, milestones for completion of
         planned actions will be needed for resolution of these recommendations. We
         consider the Region’s planned action for implementation of Recommendation
         3-1 (b) to be satisfactory.




                                         32                          Report No. 2003-P-00002
                              Chapter 4
       Groundwater Remediation Requirements
             Not Adequately Addressed
        Region 10 has not obtained sufficient information from DOE to determine
        whether an interim remedial action is necessary for contaminated groundwater
        within the reactor section of the Hanford Site 100-K Area. Specifically:

        •    The Region and DOE concluded, without completing a formal assessment,
             that an interim remedial action was unnecessary for the reactor section.

        •    The Region has not ensured that DOE’s groundwater monitoring system has
             provided sufficient data to enable an adequate assessment of remediation
             requirements.

        The noted conditions mainly occurred because the Region has not placed
        sufficient emphasis on ensuring that DOE has assessed remediation requirements
        for the reactor section. Hexavalent chromium contamination levels in the
        groundwater within the reactor section have continued to significantly exceed
        State limits, and carbon-14 contamination levels in the groundwater have
        continued to exceed the Federal drinking water standards for radionuclides.
        However, because of the inadequate data, we could not determine whether an
        interim remedial action to remove hexavalent chromium and carbon-14 from the
        groundwater within the reactor section was necessary for adequate protection of
        ecological receptors.

Background

        The Hanford FFACO states that one of the purposes of the agreement is to
        “ensure that the environmental impacts associated with past and present activities
        at the Hanford Site are thoroughly investigated and appropriate response action
        taken as necessary to protect the public health, welfare and the environment.” The
        FFACO also specifies that the Applicable or Relevant and Appropriate
        Requirements for the Hanford Site include all Federal and State laws and
        standards that pertain to protection of human health and the environment. The
        100-KR-4 Operable Unit includes the contaminated groundwater within the
        100-K Area, as well as surface water, saturated sediments and aquatic biota
        impacted by operations associated with the K East and K West Reactors. Figure
        4-1 shows the groundwater monitoring system for the operable unit.



                                        33                          Report No. 2003-P-00002
Figure 4-1: 100-K Area Groundwater Monitoring Wells and Aquifer Sampling Tubes
         (Source: Hanford Site Groundwater Monitoring for Fiscal Year 2000)




                                    34                             Report No. 2003-P-00002
Formal Assessment to Determine Remediation Need Not Conducted

         Region 10 and DOE concluded, without completing a formal assessment, that an
         interim remedial action was unnecessary for the 100-K Area’s reactor section.
         This was despite the fact that DOE’s risk assessment for the 100-KR-4
         Groundwater Operable Unit concluded that hexavalent chromium and carbon-14
         contamination to the groundwater posed unacceptable ecological risks.

         DOE completed the risk assessment for the 100-KR-4 Groundwater Operable Unit
         in June 1994 to determine whether an interim remedial action for contaminated
         groundwater within the 100-K Area was necessary. Based on a comparison of
         groundwater sampling data to risk based benchmark concentrations, the risk
         assessment identified that hexavalent chromium, carbon-14, and zinc
         contamination to the 100-K Area’s groundwater potentially posed unacceptable
         risks to freshwater aquatic life, particularly to young chinook salmon, steelhead
         trout, and fish-eating ducks.

         In October 1994, DOE submitted a draft plan to the Region for an interim
         remedial measure for the 100-K Area’s contaminated groundwater. DOE
         identified that its preferred alternative was to not remediate the groundwater, but
         to restrict access to the area through institutional controls and to continue
         monitoring. DOE said that high cleanup costs, generation of wastes, and potential
         ecosystem damage did not appear warranted by the potential ecological risks
         posed by the contaminated groundwater. In contradiction with the risk
         assessment, the plan stated that carbon-14 contamination to the groundwater
         posed only a risk to individual fish-eating ducks but not populations of ducks and
         the ecosystem as a whole.

         The Region disagreed with DOE’s proposed plan and, as a result, negotiated with
         DOE over the period from October 1994 to September 1995 to implement an
         interim remedial action for the contaminated groundwater. After reaching
         agreement, DOE, Region 10, and the State of Washington Department of Ecology
         released the Proposed Plan for Interim Remedial Measure at the 100-KR-4
         Operable Unit for public comment. This proposed plan identified that the
         preferred alternative for remediating the groundwater was to remove hexavalent
         chromium, carbon-14, and zinc from the groundwater using an ion exchange
         pump-and-treat system.

         Although the risk assessment identified that all groundwater contamination levels
         in excess of risk based benchmark concentrations potentially posed unacceptable
         risks to ecological receptors, the proposed remedial action only addressed the
         groundwater between the 100-K Area’s 116-K-2 Trench and the Columbia River.
         The proposed plan’s interim remedial action did not address the groundwater


                                         35                           Report No. 2003-P-00002
contamination within the remainder of the 100-K Area located within the reactor
section.

After review and evaluation of comments on the proposed plan, the ROD for the
interim remedial action was signed by the three parties in April 1996. The ROD
requires DOE to operate an ion exchange pump-and-treat system to remove
hexavalent chromium from the groundwater between the 116-K-2 Trench and the
Columbia River. Inconsistent with the proposed plan, the ROD does not require
removal of carbon-14 and zinc from the groundwater. According to the ROD,
detailed analysis showed that zinc and carbon-14 contamination in the
groundwater did not warrant inclusion in the interim action. The ROD indicated
the elevated zinc data used in the risk assessment was caused by a zinc-plated
screen installed in the monitoring well where the sampling data was obtained, and
the data was therefore not representative of a zinc-contaminated groundwater
plume. However, groundwater sampling data used for the risk assessment showed
that significant groundwater contamination exists in both the 116-K-2 (Trench)
and the reactor sections of the 100-K Area, as shown in Table 4-1.




                                36                         Report No. 2003-P-00002
                   Table 4-1: 100-K Area Contamination Levels from Risk Assessment

                   Monitoring Well    Highest Cr 3 Sample      Highest C-14 4 Sample
                                        (unfiltered ug/L)             (pCi/L)

               Allowable levels                 105                     20005

                   K-23    (R1)                 159                       51

                   K-30    (R)            Not Detected                  23000

                   K-32A   (R)                  140                      450

                   K-33    (R)                  25.7                    16000

                   K-34    (R)                  156                     13000

                   K-36    (R)                  1950                     310

                   K-19    (T2)                 128                       16

                   K-20    (T)                  261                      630

                   K-21    (T)                  125                      8.6

                   K-22    (T)                  187                      236
               1
                 Monitoring well located in the reactor section.
               2
                 Monitoring well located in the 116-K-2 section.
               3
                 Chromium (Bold denotes above standard).
               4
                 Carbon-14 (Bold denotes above standard).
               5
                 State of Washington Chronic Ambient Water Quality Standard for the
                 Protection of Freshwater Aquatic Life.
               6
                 Federal drinking water quality standard.
               Source: DOE’s Qualitative Risk Assessment for the 100-KR-4
               Groundwater Operable Unit


          Even though the sampling data used for the risk assessment showed that the
          groundwater within the reactor section was contaminated with high levels of
          chromium and carbon-14, the Region was unable to provide us with
          documentation showing that an interim remedial action was not necessary for
          protection of the ecological receptors. Consequently, we were unable to verify
          that the decision to remediate only the groundwater between the 116-K-2 Trench
          and the river provided sufficient protection to the Columbia River’s ecosystem.

Groundwater Monitoring System Does Not Provide Sufficient Data

          Region 10 has not ensured that DOE’s groundwater monitoring system has
          provided sufficient data to assess whether an interim remedial action is necessary
          for groundwater contaminated by hexavalent chromium and carbon-14 within the
          100-K Area’s reactor section. Specifically, the current configuration of the

                                           37                           Report No. 2003-P-00002
groundwater monitoring system has not provided sufficient groundwater
assessment data, and groundwater sampling has been too infrequent.

Groundwater Monitoring System Not Adequately Configured

The current configuration of the groundwater monitoring system for the reactor
section does not provide sufficient data to assess: (a) the current ecological risks
posed by the hexavalent chromium and carbon-14 groundwater contamination;
and (b) whether an interim remedial action is necessary to protect the river’s
ecosystem. The reactor section’s groundwater monitoring system consists of
19 groundwater monitoring wells, 4 aquifer sampling tubes, and 1 riverbank
seepage sample point. Four of the 19 wells are near the river (approximately 75 to
275 meters from the river’s edge). The approximate spacing between the aquifer
tubes ranges from 225 to 600 meters.

To determine whether DOE’s groundwater monitoring system for the reactor
section provided sufficient data to assess ecological risks and whether an interim
remedial action is necessary, we reviewed groundwater sampling data for the
100-K Area from January 1994 to December 2001, DOE’s groundwater
monitoring reports for Fiscal 2000 and 2001, and other DOE documents.

Our review showed that the locations of groundwater monitoring wells for the
reactor section do not provide sufficient characterization of the contamination
levels, boundaries, and migration of the groundwater plumes. Furthermore, the
review showed that there are an insufficient number of aquifer tubes along the
river to ensure that all discharge points for groundwater plumes and contaminant
concentrations entering the river are identified. Weaknesses in the monitoring
system have been acknowledged by DOE in the past. For example, DOE’s Fiscal
2001 report on groundwater monitoring stated (Hanford Site Groundwater
Monitoring for Fiscal Year 2001, pages 2.33 and 2.34):

       Monitoring wells in the 100K Area do not provide extensive and
       uniform coverage, so the configuration of the water table cannot
       be described with a high degree of confidence for all portions of
       the area.…

       …The western extent of this plume is uncertain because monitoring
       wells do not cover that area.

Based on our review of the sampling data and other groundwater documents, we
concluded that the existing groundwater monitoring system for the reactor section
was not adequate to determine the spatial distribution of contaminants,
particularly near the river where ecological impacts are the primary concern. The


                                 38                          Report No. 2003-P-00002
data clearly show that there continues to be severe contamination of the aquifer in
the vicinity of the K East and K West Reactor facilities.

To obtain sufficient data to assess the current ecological risks posed by the
groundwater contamination and whether an interim remedial action is necessary,
the Region needs to require DOE to install additional aquifer sampling tubes
along the river at the reactor section. Our review indicates that these sampling
points should be spaced 100 meters apart. If the sampling results from the
additional aquifer tubes show that additional groundwater monitoring wells are
necessary for characterizing and assessing the ecological risks posed by the
groundwater plumes, the Region should require DOE to install the additional
wells.

Groundwater Sampling Frequency Not Adequate

Groundwater sampling for the reactor section has been too infrequent to enable an
accurate assessment of the current ecological risks posed by the hexavalent
chromium and carbon-14 contamination to the groundwater and the need for an
interim remedial action.

Groundwater sampling for hexavalent chromium contamination within the
116-K-2 Trench section has been conducted monthly for compliance wells and
semiannually for monitoring wells. However, groundwater sampling during
Fiscal 1997 through 2001 for chromium and carbon-14 near the river in the
reactor section has been less frequent and consistent. Specifically, groundwater
sampling for hexavalent chromium in near river wells of the reactor section has
been limited to an annual basis, and even less frequent and consistent for the
aquifer sampling tubes and the riverbank seepage sampling point. Furthermore,
groundwater sampling coverage for carbon-14 near and along the river of the
reactor section has been even less frequent and less consistent than the chromium
sampling for the section. Details are in Table 4-2.




                                 39                          Report No. 2003-P-00002
            Table 4-2: Sampling Conducted for Reactor Section, 1997-2001
                   1997             1998             1999            2000             2001
Sample
Point        Cr       C-14     Cr      C-14     Cr      C-14    Cr      C-14     Cr      C-14
K-31          X2          –3   X           –    X           –    X          –    X           –
K-32A         X           X    X           X    X           X    X          X    X           X
K-32B         X           –    X           –    X           –    X          –    X           –
K-33          X           X    X           X    X           X    X          X    X           X
       1
AT15                           X           X    –           –    –          –    –           –
       1
AT17                           X           X    X           X    X          X    –           –
       1
                   N/A4
AT18                           X           –    X           X    X          X    –           –
       1
AT19                           X           –    –           –    –          –    X           X
Seep          –           –    –           –    –           –    –          –    X           –
1
  Aquifer sampling tube
2
  X indicates sampling was conducted
3
  – indicates sampling was not conducted
4
  Not Applicable because aquifer sampling tubes were installed late in Fiscal 1997
Source: HEIS and DOE Groundwater Monitoring Reports


    We believe the sampling frequency for hexavalent chromium and carbon-14
    groundwater contamination for the groundwater monitoring wells should be at
    least semiannually until a formal assessment of the current ecological risks and
    need for remediation is completed. The sampling frequency for hexavalent
    chromium and carbon-14 contamination in the aquifer sampling tubes and the
    riverbank seepage point should be at least annually, in the Fall, since high river
    levels at other times of the year may render the tubes and seeps inaccessible.

    During our review of groundwater sampling data we found that hexavalent
    chromium sampling results for aquifer sampling tubes have not been routinely
    entered in DOE’s Hanford Environmental Information System (HEIS).
    Specifically, Fiscal 1998 hexavalent chromium sampling results for Aquifer
    Sampling Tubes 15, 17, 18, and 19, and Fiscal 2000 hexavalent chromium
    sampling results for Aquifer Sampling Tubes 17 and 18 were not included.

    The Region and State use HEIS to assist them with monitoring and evaluating
    environmental conditions and remedial activities at the Hanford Site. Because
    some sampling results have not been input into HEIS, the Region and State have
    no assurance that the sampling data they obtain from the data base is complete for
    a specific CERCLA operable unit; RCRA Treatment, Storage, Disposal unit; or
    remedial action. Sampling data can eventually be obtained through monitoring
    reports periodically published by DOE. However, a complete and accurate
    electronic data base containing sampling results for the Hanford Site would

                                           40                          Report No. 2003-P-00002
                 provide the Region and State with a single information source that is readily
                 available.4

Unremediated Groundwater May Pose Significant Ecological Risks

                 Hexavalent chromium and carbon-14 contamination levels in the groundwater
                 within the reactor section have continued to exceed State and Federal standards by
                 significant amounts, and discharge of these contaminants to the river at levels that
                 exceed the standards may adversely affect the Columbia River’s ecosystem.

                  A 1998 DOE report, based on sampling data from riverbank seeps from about
                 1991 through 1995, was consistent with the conclusion of the DOE’s risk
                 assessment for the 100-KR-4 Operable Unit, and stated that the chromium
                 contamination to the groundwater within the 100-K Area posed unacceptable risks
                 to aquatic organisms, including young salmon. It also specifically identified that
                 the groundwater contamination within both 116-K-2 Trench and reactor sections
                 of the 100-K Area posed unacceptable risks to aquatic organisms, primarily
                 because of chromium’s toxicity to embryonic and young salmon.5

                 Our review of groundwater sampling data covering the period from 1994 to 2001
                 for the reactor section confirmed that contamination levels for chromium and
                 carbon-14 have remained high since the completion of the risk assessment in 1994
                 and DOE’s 1998 report. For example, Fiscal 2001 groundwater sampling results
                 for the reactor section showed that chromium contamination in the groundwater
                 was as high as 66.4 ug/L in a monitoring well near the river and as high as 529
                 ug/L in a monitoring well near the K West Reactor Building (see Figure 4-2).




        4
           Our review of HEIS was limited to sample data for the 100-K Area. We did not project the error rate for
the entire data base and are not making recommendations to improve HEIS.

        5
        DOE, Screening Assessment and Requirements for a Comprehensive Assessment, Columbia River
Comprehensive Impact Assessment, March 1998.

                                                        41                                Report No. 2003-P-00002
                                                                        Figure 4-2

                              Highest Reactor Section Chromium Levels, 1994-2001
                                                                      (Source: HEIS Data)
                              600

                              500

                              400
           ug/L


                              300

                              200

                              100

                               0
                                    1994         1995          1996         1997      1998         1999        2000         2001
                                                                              Fiscal Year

                                             K-107 Reactor Well        K-32B Near River Well        Cleanup Standard - 22 ug/L



         The Fiscal 2001 groundwater sampling results for the reactor section also showed
         that carbon-14 contamination to the groundwater was as high as 13,400 pCi/L in a
         monitoring well near the river and as high as 16,300 pCi/L in a monitoring well
         near the K East Reactor Building (see Figure 4-3).
                                                                         Figure 4-3

                              Highest Reactor Section Carbon-14 Levels, 1994-2001
                                                                      (Source: HEIS Data)

                              20
                              18
           pCi/L- Thousands




                              16
                              14
                              12
                              10
                               8
                               6
                               4
                               2
                               0
                                    1994         1995          1996         1997       1998         1999        2000        2001
                                                                              Fiscal Year

                                           K-30 Reactor Well      K-33 Near River Well         Drinking Water Standard - 2000 ug/L




Sufficient Emphasis Not Placed on Remediation Assessment

         The noted conditions mainly occurred because the Region has not placed
         sufficient emphasis on ensuring that DOE has assessed remediation requirements

                                                                       42                                    Report No. 2003-P-00002
         for the contaminated groundwater within the 100-K Area’s reactor section. The
         Region told us it did not consider groundwater contamination within the 100-K
         Area or reactor section as significant as at other areas of the Hanford Site and, as a
         result, more emphasis has been placed on remediation in those areas. The Region
         also said that the carbon-14 contamination to the groundwater was not included in
         the interim remedial action because the risk assessment’s ecological risk
         assessment was too conservative, and it did not believe that carbon-14
         contamination posed risks to individual or populations of fish eating ducks.

Conclusion

         DOE’s risk assessment for the 100-KR-4 Operable Unit identified that hexavalent
         chromium and carbon-14 contamination to the 100-K Area’s groundwater
         potentially posed unacceptable risks to freshwater aquatic life. The Region was
         unable to provide us with documentation showing that the decision to not
         remediate the groundwater contamination within the reactor section was based on
         a formal assessment. Consequently we were unable to verify that remediation of
         hexavalent chromium and carbon-14 contamination to the groundwater within the
         reactor section is unnecessary for protection of the Columbia River’s ecosystem.
         Furthermore, the current groundwater monitoring system and sampling coverage
         for the reactor section do not provide sufficient data to assess risk. An adequate
         assessment to determine whether an interim remedial action is necessary cannot
         be completed until groundwater data that sufficiently identifies the current
         ecological risks posed by the contaminated groundwater is obtained.

Recommendations

         We recommend that the Region 10 Administrator:

             4-1. Require DOE to conduct a formal assessment to determine whether an
                  interim remedial action for removal of carbon-14 and/or hexavalent
                  chromium within the reactor section of the 100-K Area is necessary for
                  protection of the Columbia River’s ecosystem. Ensure that the assessment
                  is based on groundwater monitoring data that sufficiently identifies the
                  current ecological risks posed by the contaminated groundwater.

             4-2. Require DOE to continue to monitor for carbon-14 and hexavalent
                  chromium in the 100-K Area groundwater to determine if expansion of the
                  pump-and-treat system for chromium is necessary in the interim to protect
                  the Columbia River.




                                           43                           Report No. 2003-P-00002
         4-3.   Require DOE to improve the groundwater monitoring system for the
                reactor section of the 100-K Area. Consider including as part of the
                system:

                a.      Additional aquifer sampling tubes along the Columbia River, such
                        as an aquifer sampling tube every 100 meters.

                b.      Additional groundwater monitoring wells if sampling results from
                        the additional aquifer tubes show that the monitoring wells are
                        necessary for characterizing and assessing the current ecological
                        risks posed by the groundwater plumes within the reactor section.

                c.      A sampling frequency of at least semiannually for all groundwater
                        monitoring wells within the reactor section for hexavalent
                        chromium and carbon-14.

                d.      A sampling frequency of at least annually for the aquifer sampling
                        tubes and the riverbank seepage sample point within the reactor
                        section for hexavalent chromium and carbon-14.

Agency Comments and OIG Evaluation

         Region 10 agreed with Recommendation 4-1 with comment, agreed with
         Recommendation 4-2, and disagreed with Recommendation 4-3.

         In response to Recommendation 4-1, the Region stated that a formal assessment
         of the need for an interim remedial action in the area’s reactor section has been
         conducted. It said that formal assessments have been conducted and have
         indicated that contaminated soil, pipelines, and the K Basins pose a risk to
         groundwater and meet the criteria in the FFACO for interim remedial actions.
         The Region also said that formal assessments for the groundwater documented
         that the groundwater did not meet the criteria for interim remedial action.
         However, it proposed to develop, in conjunction with DOE, a technical
         memorandum to the file which clearly documents the rationale for not requiring
         an interim action in the reactor section.

         The Region indicated in response to Recommendation 4-2 that monitoring for
         these contaminants has been included in the groundwater monitoring network for
         many years and will continue to be included. It said that the results will be
         evaluated at least annually with DOE as part of the annual program reviews. In
         addition, the Region stated that any significant change in conditions would be
         considered in determining expansion of the pump-and-treat interim action where
         appropriate.


                                          44                          Report No. 2003-P-00002
The Region said that the specific groundwater monitoring system changes
outlined in Recommendation 4-3 were not appropriate at this time. However, the
Region also stated: “…on October 4, 2002, EPA received a groundwater
monitoring and assessment plan for the 100 K Area fuel storage basins that will be
reviewed by EPA and the U.S. Geological Survey to determine if modifications in
the groundwater monitoring system are needed for an evaluation of remedial
action effectiveness, or to further refine implementation strategies for ongoing
remedial actions.”

We agree that formal assessments were conducted to determine the potential risks
posed by the hexavalent chromium and carbon-14 contamination to the
groundwater within the 100-K Area. The risk assessment for 100-KR-4
Groundwater Operable Unit, completed in 1994, concluded that hexavalent
chromium and carbon-14 contamination to the groundwater potentially posed
unacceptable risks to freshwater aquatic life. Furthermore, DOE’s Screening
Assessment and Requirements for a Comprehensive Assessment, Columbia River
Impact Assessment, completed in 1998, concluded that chromium contamination
to the groundwater within the 100-K Area posed unacceptable risks to aquatic
organisms. We also note that the 1998 assessment did not evaluate risks posed by
the carbon-14 contamination because sufficient groundwater sampling data was
not available.

During the evaluation, the Region told us that the decision process used to assess
the need for an interim remedial action for the contaminated groundwater within
the 100-K Area was documented, including the proposed plan for an interim
remedial measure for the 100-K Area’s contaminated groundwater and the ROD.
However, the remediation decision documents made available to us by the Region
did not sufficiently explain and support the Region’s and DOE’s conclusion that
an interim remedial action was unnecessary for the contaminated groundwater
within the reactor section.

We agree that the Region needs to adequately document the remediation decision
process for groundwater within the reactor section. As discussed in this chapter,
the Region needs to ensure that the remediation decision is based on sufficient
groundwater sampling data. In response to the final report, the Region needs to
provide the specific action planned and the completion date for final resolution of
Recommendation 4-1.

We consider the Region’s planned actions and implementation schedule for
Recommendation 4-2 to be satisfactory.

In regard to the Region’s response to Recommendation 4-3, it is not clear that
their plan to evaluate DOE’s groundwater monitoring and assessment plan for the
100 K Area fuel storage basins specifically addresses weaknesses in groundwater

                                 45                          Report No. 2003-P-00002
monitoring for hexavalent chromium and carbon-14. Our evaluation of the
adequacy of the groundwater monitoring system for the reactor section included a
review of the system by an independent expert in groundwater hydrology and
groundwater contaminant transport. This review concluded that there continues to
be severe contamination of the aquifer in the vicinity of the K East and K West
Reactor facilities, inadequacies in the spatial and temporal coverage of sampling
in this area make it difficult to determine if contaminants are reaching the
Columbia River and, therefore, the existing groundwater monitoring system for
the reactor section needs to be improved to determine the spatial distribution of
contaminants, particularly near the river where ecological impacts are the primary
concern.

The Region’s plan to evaluate DOE’s groundwater monitoring and assessment
plan for the 100 K Area fuel storage basins does not specifically address
weaknesses in groundwater monitoring for hexavalent chromium and carbon-14.
In order to resolve Recommendation 4-3, the Region needs to either: (1)
determine monitoring system modifications that will provide sufficient data to
assess remediation requirements for hexavalent chromium and carbon-14
contamination to the groundwater; or (2) provide an analysis which clearly shows
that the current monitoring system provides sufficient data to assess whether an
interim remedial action is necessary in the reactor section. If the Region
determines that the monitoring system requires modification, it will also need to
ensure that the necessary modifications are made to the system.




                                46                          Report No. 2003-P-00002
                                                                                                                      Appendix A

   Timeline of K Basins Major Events and FFACO Milestones


  January 1994 FFACO
                                                                                                         Complete Removal of K
                                                                   DNFSB Recommends                      East and K West Basin
  100 K Reactors                  K East Basin                     to S tabilize K East                  SNF and S ludge
  Initiate Operations             Leaks 15M Gallons                Basin SNF in 2-3 Yrs

                                1975                                 1993                       1998

    1955                               1976     1979                        1994                                      Dec 2002

                        Approx. End of K Basins             K East Basin                Complete Encapsulation of K
                        20 Yr Design Life                   Leaks 90K Gallons           EastBasin Fuel and S ludge



  January 1999 FFACO Amendment

                          Complete Removal of        Complete Sludge                    Complete Removal of
                          K West Basin SNF           Removal from K Basins              K East Basin Water
                                        Dec 2003                            Sept 2005                                   Jul 2007

                                Apr 2003                    Aug 2005                            Oct 2006

                                  Complete Removal of                  Complete Removal of                 Complete Removal of
                                  K East Basin SNF                     K West Basin Water                  All SNF, S ludge, Debris,
                                                                                                           and Water


  May 2000 FFACO Amendment
                                                                                          Complete Removal of
             Complete Removal of              Complete Sludge
                                                                                          K East Basin Water
             K West Basin SNF                 Removal from K Basins
                                                July 2004                   Sept 2005                                   Jul 2007

                 Dec 2002                               Aug 2004                                Oct 2006

                                           Complete Removal of         Complete Removal of                 Complete Removal of
                                           K East Basin SNF            K West Basin Water                  All SNF, S ludge, Debris,
                                                                                                           and Water



  March 2001 FFACO Amendment
                                                                                                           Complete Removal of
                            Complete Transfer of K East                Complete Removal of                 All SNF, S ludge, Debris,
                            Basin SNF to K West Basin                  K East Basin Water                  and Water
                                                July 2004                                     Aug 2006

                                        May 2004                            Sept 2005                                   Jul 2007

                                           Complete Removal of                            Complete Removal of
                                           All K Basin SNF                                K West Basin Water


SNF: Spent Nuclear Fuel
DNFSB: Defense Nuclear Facilities Safety Board




                                                                    47                                     Report No. 2003-P-00002
48   Report No. 2003-P-00002
                                                                                   Appendix B
                     Details on Scope and Methodology
We performed our evaluation in accordance with the Government Auditing Standards, issued by
the Comptroller General of the United States. Fieldwork was performed between November
2001 and May 2002. The evaluation generally covered EPA Region 10’s management controls
in effect from January 1994 through May 2002. We also reviewed relevant oversight and
enforcement records maintained by the Region from before and after that period as necessary.
Our evaluation was coordinated with the DOE Office of Inspector General’s audit of DOE’s
remediation activities for the Hanford Site’s K Basins. The DOE OIG’s audit was performed
between April 2001 and January 2002, and a final report on the audit results was issued in April
2002 (Completion of K Basins Milestones, DOE/IG-0552).

We interviewed officials in EPA Region 10 ’s Hanford Project Office, EPA’s Office of Solid
Waste and Emergency Response, and the State of Washington’s Department of Ecology. In
addition, we interviewed officials from the State of Oregon’s Office of Energy and the Yakama
Indian Nation, stakeholders of the Hanford Site.

We reviewed applicable laws, regulations, and records maintained by the Region. The scope
included a review of the Region’s management controls associated with oversight and
enforcement of: (a) FFACO milestones associated with the interim remedial action for the 100-K
Area’s K Basins; and (b) DOE compliance with CERCLA requirements applicable to
remediation of the 100-K Area’s contaminated groundwater. We obtained an understanding of
management controls through inquiries, observations, and inspections of documents and records.
We assessed the control environment and policies and procedures. In addition, we reviewed the
Region’s annual Federal Managers’ Financial Integrity Act assurance letters to the Administrator
for Fiscal 1999 and 2000. Management control deficiencies identified are discussed in the
various chapters in this report.

FFACO Milestones for Remediation of the K Basins

We focused on FFACO milestones for removal of spent nuclear fuel, sludge, debris, and water
from the K Basins. We reviewed all FFACO amendments revising major Milestone M-34-00, as
well as supporting interim milestones from January 1994 to May 2002. In addition, DOE
planning and justification documents submitted to the Region as support for the approved
FFACO amendments were reviewed. We also selected key interim milestones to evaluate
compliance with FFACO requirements, and reviewed the Region’s enforcement activities and
records for missed milestones.

Compliance with CERCLA Requirements

To evaluate oversight and enforcement of DOE’s compliance with CERCLA remediation
requirements applicable to the contaminated groundwater within the 100-K Area, we reviewed

                                               49                          Report No. 2003-P-00002
the: (a) effectiveness of the pump-and-treat remediation system for a contaminated groundwater
plume within the area; (b) effectiveness of the groundwater monitoring system for the area’s
reactor section; (c) process used for assessing the risks posed by the contaminated groundwater
within the area; and (d) process used for determining interim remediation decisions for the area’s
contaminated groundwater.

Pump-and-Treat Remediation System

We reviewed the ROD for the Hanford Site’s 100-HR-3 and 100-KR-4 Operable Units. We also
reviewed work plans and operation documents for the 100-K Area’s pump-and-treat system
covering October 1997 through December 2001. In addition, sampling results for monitoring
and compliance wells used to measure the effectiveness of the interim remedial action were
reviewed for the same period. We also evaluated actions taken by the Region during that period
to resolve compliance issues associated with the ROD requirements for the pump-and-treat
remediation system.

Groundwater Monitoring System

We focused on 100-K Area groundwater monitoring data from January 1994 through December
2001. Our review included groundwater sampling data, monitoring reports, aquifer sampling
reports, and monitoring plans covering the period. We also obtained a review on the adequacy of
groundwater monitoring in the 100-K Area from an independent groundwater expert.

Risk Assessment Process

We evaluated the risk assessment for the 100-KR-4 Groundwater Operable Unit against EPA risk
assessment guidance. We compared the risk assessment results to the results of the Screening
Assessment and Requirements for a Comprehensive Assessment, Columbia River Comprehensive
Impact Assessment to determine whether conclusions on the risks posed by the 100-K Area’s
groundwater were consistent. We also reviewed proposed plans, environmental reports, salmon
reports, a recent risk assessment for the groundwater within the 100-N Area, and the Region’s
recent CERCLA Five-Year Review Report for Hanford. We obtained a review on the adequacy
of DOE’s risk assessments addressing the groundwater contamination within the 100-K Area
from an independent groundwater expert.

Remediation Decision Process for Contaminated Groundwater

We evaluated the planned groundwater remediation for the 100-K Area and the potential need for
additional interim remedial actions for tritium, strontium-90, carbon-14, nitrate, and hexavalent
chromium. We obtained groundwater sampling results for the 100-K Area from HEIS and
groundwater monitoring reports in order to identify contamination trends over the 8-year period
from January 1994 through December 2001. Finally, a review of the need for additional interim
remedial actions in the 100-K Area was obtained from an independent groundwater expert.


                                                50                          Report No. 2003-P-00002
                                                                Appendix C

              Agency Response




Following is the full agency response to the draft report.




                           51                           Report No. 2003-P-00002
52   Report No. 2003-P-00002
53   Report No. 2003-P-00002
               EPA Region 10 Response to IG Recommendations in the
              Draft Evaluation Report 2001-000954, dated October 2, 2002

Executive Summary Recommendation:

      The Inspector General (IG) recommended EPA monitor DOE’s efforts to successfully
      complete remediation requirements for the K Basins and take action as appropriate under
      the Federal Facility Agreement and Consent Order (FFACO) if requirements are not met.

Region Response:

      The region concurs. Region 10 participates in bi-weekly meetings with DOE and the
      Defense Nuclear Facility Safety Board as part of EPA’s oversight responsibilities at
      Hanford. Each quarter the K Basins project is discussed with DOE management and the
      State. The EPA also monitors progress through regular contacts with DOE, including
      Tri-Party Agreement milestone status review meetings, site inspections, and multi-agency
      project manager meetings. Progress on remediation requirements will continue to be
      tracked through these mechanisms. The EPA expects that milestones will be met unless a
      timely request for an extension or change is received and good cause exists for the
      requested change or extension (see FFACO Article XL, “Good Cause for Extensions”and
      Section 12 of the Action Plan, “Changes to the Agreement”).

Executive Summary Recommendation:

      The IG recommended EPA evaluate performance of the upgraded pump-and-treat system
      to determine if it will achieve the remedial action objectives and if necessary pursue
      timely and formal followup on problems.

Region Response:

      The Region concurs. The EPA directed DOE to upgrade the pump-and-treat system, and
      that upgraded system went on-line in May 2002. EPA will continue to review monitoring
      and performance reports to assess system effectiveness in meeting remedial action
      objectives and to require modifications as appropriate.

Executive Summary Recommendation:

      The IG recommended EPA require a formal assessment on the need for an interim
      remedial action in the area’s reactor section.

Region Response:

      The Region concurs with this recommendation with comments. The Region believes that
      a formal assessment of the need for an interim action in the area’s reactor section has
      been conducted. Formal assessments have been conducted in the reactor area and have
      indicated that contaminated soil, pipelines, and the K Basins pose a risk to groundwater

                                             54                         Report No. 2003-P-00002
      and meet the criteria in the FFACO for interim remedial actions. The interim action for
      the K Basins has been removing waste for several years; the interim action for soil and
      pipelines begins next month. The formal assessments determined that groundwater
      within the reactor area did not meet the criteria for an interim remedial action. The
      Region proposes to develop, in conjunction with DOE, a technical memorandum to the
      file that clearly documents the rationale for not requiring an interim action in the reactor
      area, referencing previously issued documents as appropriate.

Executive Summary Recommendation:

      The IG recommended that EPA have DOE improve its groundwater monitoring system.

Region Response:

      The Region does not concur with the recommendation. The Region does not believe that
      it is appropriate to recommend the specific changes in the groundwater monitoring system
      outlined in the draft IG report at this time. However, on October 4, 2002, EPA received a
      groundwater monitoring and assessment plan for the 100 K Area fuel storage basins that
      will be reviewed by EPA and the U.S. Geologic Survey to determine if modifications in
      the groundwater monitoring system are needed for an evaluation of remedial action
      effectiveness, or to further refine implementation strategies for ongoing remedial actions.

Executive Summary Recommendation:

      The IG noted that enforcement actions should be pursued as appropriate.

Region Response:

      The Region concurs. Enforcement will be conducted in accordance with the FFACO,
      including Article XX “Stipulated Penalties.”

IG Recommendation 2-1:

      Monitor progress of DOE toward meeting K Basins milestones, including M-34-17, to
      initiate removal of K East Basin spent nuclear fuel, M-34-08, to initiate full scale K East
      Basin sludge removal, and M-34-18A, to remove 190 multi-canister overpacks. Reaffirm
      EPA’s expectation that milestones will be met unless a timely request for an extension or
      change is received and good cause exists for the request as defined by the FFACO. In
      addition:

      a)     Place priority on remediating the K East Basin, focusing on removing spent
             nuclear fuel, sludge, debris, and water.




                                               55                            Report No. 2003-P-00002
      b)     If DOE does not complete the K Basins milestones in a timely manner, the Region
             should respond, consistent with FFACO enforcement provisions, including
             penalties, to ensure the work is completed as expeditiously as possible.

Region Response:

      The Region concurs. The IG recommendations reflect the Region’s approach to
      management of K Basin performance. Removal of fuel from the K East Basin is
      expected to begin in November 2002. EPA will closely track progress during formal
      Tri-Party Agreement (TPA) milestone meetings, as well as field visits and regular status
      briefings with DOE project managers. Note that milestone M-34-18A is to remove spent
      nuclear fuel equivalent to 957 metric tons of heavy metal, not 190 multi-canister
      overpacks.

IG Recommendation 2-2:

      Prior to approval by the Region, ensure that any necessary amendments to the FFACO
      that revise remediation requirements and/or the remediation schedule for the 100-K Area
      including the K Basins:

      a.     Are supported with performance and planning information that provide the
             Region with reasonable assurance that the revised requirements and schedule are
             necessary, achievable, and reduce risks to human health and the environment as
             expeditiously as possible.

      b.     Include enforceable interim milestones and due dates that enable the Region to
             more timely resolve insufficient remediation progress by DOE through
             enforcement actions.

IG Recommendation 2-3:

      Require formal followup actions in response to missed target milestone due dates by
      DOE. These followup actions should establish the Region’s expectations on resolving
      performance issues.

Region Response:

      The Region concurs with these recommendations. The EPA does not anticipate receiving
      any milestone change packages from DOE in the near term. The DOE has been providing
      via formal letter to EPA an explanation for missed target dates, an analysis of impacts to
      the project, and a plan for resolution of the performance issue. Recent TPA milestone
      status briefings indicate that milestone M-34-17 is on schedule to be completed by
      November 30, 2002. Milestones M-34-08 and M-34-18A, scheduled to be completed on
      December 31, 2002, are anticipated to be completed in February 2003.


                                              56                          Report No. 2003-P-00002
IG Recommendation 3-1:

      Evaluate the performance of the upgraded 100-K Area pump-and-treat system that went
      on-line in May 2002 to determine if it achieves the remedial action objectives of the
      ROD. If remedial action objectives are not being met, pursue timely and formal followup
      and/or enforcement actions that include specific corrections, actions, and deadlines to
      ensure that:

      a.     Pump-and-treat system downtime is minimized and the composite withdrawal rate
             for extraction wells is maintained at a rate that maximizes the system’s
             effectiveness with capturing and remediating the contaminated groundwater.

      b.     Any future upgrades to the pump-and-treat system that are necessary for achieving
             the ROD’s cleanup standard are completed by specific enforceable due dates.

      c.     DOE evaluates remediation alternatives to the pump-and-treat system if
             hexavalent chromium levels in compliance wells do not meet the ROD’s cleanup
             standard by the end of Fiscal 2003.

Region Response:

      The Region concurs with this recommendation. EPA has been monitoring the
      performance of the pump and treat system since the earliest days of operation. The May
      2002 modifications to the system reflect the most recent efforts to enhance system
      performance. Since the expansion of May 2002, the system has been operating nearly
      continuously at about 260 gallons per minute. If future upgrades to the system are
      necessary, the EPA will pursue specific enforceable dates for their completion.
      Regarding item “c,” DOE, the State, and EPA continue to evaluate alternatives to the
      pump-and-treat system. The 1996 Record of Decision for 100-KR-4 included “evaluation
      of other technologies” in the remedial action objectives. The EPA has made this an
      ongoing part of the interim remedial action rather than an activity to commence by the
      end of fiscal year 2003. Remedial action objectives have yet to be achieved in monitoring
      wells downgradient of the groundwater recover and treatment system and the
      groundwater being recovered continues to have high levels of chromium. This system
      will continue to be operated by DOE to recover chromium in the groundwater system and
      protect the Columbia River. EPA plans to ask the U.S. Geological Survey to review
      system performance and to recommend any operational changes that may be appropriate
      to facilitate achievement of remedial action objectives.

IG Recommendation 4-1:

      Require DOE to conduct a formal assessment to determine whether an interim remedial
      action for removal of carbon-14 and/or hexavalent chromium within the reactor section of
      the 100-K Area is necessary for protection of the Columbia River’s ecosystem. Ensure
      that the assessment is based on groundwater monitoring data that sufficiently identifies
      the current ecological risks posed by the contaminated groundwater.

                                             57                          Report No. 2003-P-00002
Region Response:

      The Region concurs with this recommendation, with comments. The Region believes
      that a formal assessment of the need for an interim action in the area’s reactor section has
      been conducted. Formal assessments have been conducted in the reactor area and have
      indicated that contaminated soil, pipelines, and the K Basins pose a risk to groundwater
      and meet the criteria in the FFACO for interim remedial actions. The interim action for
      the K Basins has been removing waste for several years, and the interim action for soil
      and pipelines begins next month. The formal assessments for groundwater documented
      that groundwater did not meet the criteria for interim remedial action. The Region
      proposes to develop, in conjunction with DOE, a technical memorandum to the file which
      clearly documents the rationale for not requiring an interim action in the reactor area,
      referencing previously issued documents as appropriate (including those documenting
      ecological risk).

IG Recommendation 4-2:

      Require DOE to continue to monitor for carbon-14 and hexavalent chromium in the
      100-K Area groundwater to determine if expansion of the pump-and-treat system for
      chromium is necessary in the interim to protect the Columbia River.

Region Response:

      The Region concurs with this recommendation. Monitoring these contaminants has been
      included in the groundwater monitoring network for many years and will continue to be
      included. Results will be evaluated at least annually with DOE as part of annual program
      reviews. Any significant change in conditions would be considered in determining
      whether expansion of the pump and treat interim action were appropriate.


IG Recommendation 4-3:

      Require DOE to improve the groundwater monitoring system for the reactor section of
      the 100-K Area. Consider including as part of the system:

      a.     Additional aquifer sampling tubes along the Columbia River, such as an aquifer
             sampling tube every 100 meters.

      b.     Additional groundwater monitoring wells if sampling results from the additional
             aquifer tubes show that the monitoring wells are necessary for characterizing and
             assessing the current ecological risks posed by the groundwater plumes within the
             reactor section.

      c.     A sampling frequency of at least semiannually for all groundwater monitoring
             wells within the reactor section for hexavalent chromium and carbon-14.


                                               58                          Report No. 2003-P-00002
      d.     A sampling frequency of at least annually for the aquifer sampling tubes and the
             riverbank seepage sample point within the reactor section for hexavalent
             chromium and carbon-14.

Region Response:

      The Region does not concur with the recommendation. The Region does not believe that
      it is appropriate to recommend the specific changes in the groundwater monitoring system
      outlined in the draft IG report at this time. However, on October 4, 2002, EPA received a
      groundwater monitoring and assessment plan for the 100 K Area fuel storage basins that
      will be reviewed by EPA and the U.S. Geologic Survey to determine if modifications in
      the groundwater monitoring system are needed for an evaluation of remedial action
      effectiveness, or to further refine implementation strategies for ongoing remedial actions.




                                              59                          Report No. 2003-P-00002
60   Report No. 2003-P-00002
                                                                             Appendix D

                                   Distribution

EPA Headquarters Offices

     Assistant Administrator for Solid Waste and Emergency Response
     Assistant Administrator for Enforcement and Compliance Assurance
     Director, Federal Facilities Restoration and Reuse Office
     Director, Federal Facilities Enforcement Office
     Comptroller (2731A)
     Agency Followup Official (2710A)
     Agency Followup Coordinator (2724A)
     Associate Administrator for Congressional and Intergovernmental Affairs (1301A)
     Director, Office of Regional Operations (1108A)

EPA Region 10

     Regional Administrator
     Director, Office of Environmental Cleanup
     Hanford Project Office Director
     Audit Coordinator

EPA Office of Inspector General

     Inspector General (2410)




                                           61                        Report No. 2003-P-00002
